<html>
<title> - WHITE HOUSE NARRATIVES ON THE IRAN NUCLEAR DEAL</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            WHITE HOUSE NARRATIVES ON THE IRAN NUCLEAR DEAL

=======================================================================

                                 HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 17, 2016

                               __________

                           Serial No. 114-77

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                                __________
                                
                                
                        U.S. GOVERNMENT PUBLISHING OFFICE
22-276 PDF                    WASHINGTON : 2016                        
             
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  
            
             
             
             
             
             COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
                Art Arthur, Subcommittee Staff Director
                          William Marx, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 17, 2016.....................................     1

                               WITNESSES

Mr. Michael Rubin, Resident Scholar, The American Enterprise 
  Institute
    Oral Statement...............................................     6
    Written Statement............................................     9
Mr. Michael Doran, Senior Fellow, Hudson Institute
    Oral Statement...............................................    19
    Written Statement............................................    22
Mr. John Hannah, Senior Counselor, Foundation for Defense of 
  Democracies
    Oral Statement...............................................    31
    Written Statement............................................    33

                                APPENDIX

Article from the New York Times Magazine, by David Samuels, 
  Published on May 5, 2016 Titled, ``The Aspiring Novelist Who 
  Became Obama's Foreign-Policy Guru''...........................    78
A May 16, 2016 letter from W. Neil Eggleston, Counsel to the 
  President, to Jason Chaffetz, Chairman of the House Committee 
  on Oversight and Government Reform.............................   106
A May 16, 2016 letter from Senator John Cornyn (TX), Senator Mark 
  Kirk (IL), and Senator John Barrasso (WY), to President Barack 
  Obama..........................................................   108
The International Atomic Energy Agency (IAEA) report by the 
  Director General Titled, ``Verification and Monitoring in the 
  Islamic Republic of Iran in Light of United Nations Security 
  Council Resolution 2231 (2015)'' dated January 16, 2016, 
  Submitted by Representative Stephen F. Lynch (MA)..............   110
Written Statement for the Record from Representative John J. 
  Duncan, Jr (TN)................................................   115

 
            WHITE HOUSE NARRATIVES ON THE IRAN NUCLEAR DEAL

                              ----------                              


                         Tuesday, May 17, 2016

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:01 a.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Mica, Turner, Duncan, 
Jordan, Walberg, Amash, Gosar, Gowdy, Farenthold, Massie, 
Meadows, DeSantis, Mulvaney, Buck, Walker, Blum, Hice, Russell, 
Carter, Grothman, Palmer, Cummings, Maloney, Norton, Clay, 
Lynch, Connolly, Cartwright, Lawrence, DeSaulnier, Welch, and 
Lujan Grisham.
    Chairman Chaffetz. Good morning. The Committee on Oversight 
and Government Reform will come to order.
    Without objection, the chair is authorized to declare a 
recess at any time.
    Today's hearing is entitled ``The White House Narratives on 
the Iran Nuclear Deal.'' I think this is important that we take 
this up and deal with this situation.
    As we get going, there are three items I would ask 
unanimous consent to enter into the record. The first is the 
New York Times Magazine article ``The aspiring novelist who 
became Obama's foreign policy guru.''
    The second is a letter from the White House of May 16. This 
is a letter addressed to me, copied to the ranking member, Mr. 
Cummings, and it is from Neil Eggleston talking about how the 
White House would not make Ben Rhodes available to the 
committee today.
    And I would also like to enter into the record a May 16 
letter. This is from Senator Cornyn, Senator Mark Kirk, and 
Senator John Barrasso.
    And without objection, I would like to enter these three 
into the record. Without objection, so ordered.
    Chairman Chaffetz. Iran, it is one of three countries that 
are still on the state-sponsors of terrorism, and I think it is 
important that we have some clarity. There are some issues that 
are outstanding. It is one of the most important foreign policy 
initiatives that the President has taken forward, but I still 
think it demands a lot of clarity.
    We were hoping that the clarity would be provided by 
Benjamin Rhodes. He is the assistant to the President and 
deputy national security advisor for strategic communications 
and speechwriting. He is obviously a very talented and trusted 
person in the White House. I do not doubt his talents and his 
knowledge. But the deal that had been spun up and sold to the 
American people I am not sure was as clear as it should have 
been, and I have serious questions about the transparency, the 
truthfulness, and when it really ultimately started.
    And I think those are legitimate questions as we move 
forward because here you have a state sponsor of terrorism in 
Iran and we still don't fully know the answer to a lot of these 
questions. Now, some may think they know the answers to all 
these questions, but there is still a shroud of secrecy, and I 
think this is a very viable thing to look at. Mr. Rhodes was in 
a unique position to offer this perspective, given his heavy 
duty and work on this.
    What is mystifying to me is how readily available he made 
himself to the media, but only select media, those in his echo 
chamber. He showed obviously disdain for people with foreign 
policy credentials. He showed great disdain for the media 
themselves. He is entitled to those personal opinions, but he 
also elected to share those with the New York Times and put 
them out there. He is also very negative about Congress going 
so far as to saying could not have a rational discussion--I am 
summarizing here--with the Congress. So we provided that.
    Josh Earnest from the podium there at the White House 
openly mocked Congress, said that perhaps we should be calling 
other members up such as Senator Tom Cotton, who should also 
raise their right hand and swear and affirm and answer 
questions.
    I took that suggestion, shared it with Senator Cotton. We 
accommodated that. Mr. Cotton, Senator Cotton had agreed, if 
Mr. Rhodes would be here, to also be here to answer questions 
and ferret out any of these details. But Mr. Rhodes elected not 
to speak. Now, he does have a public speaking engagement today. 
He is out giving a public speech today but refuses to come and 
speak with Congress.
    I am going to play a clip. I have got two clips in my 
opening statement. And I think you can see where maybe some on 
the other side of the aisle will say, oh, we know everything 
about this, it has been thoroughly debated, but I want you to 
watch this clip. We are going to go to what we call clip B if 
we could, and let's watch this.
    [Video shown.]
    Chairman Chaffetz. So as you can see there, Victoria Nuland 
offered what turned out to be absolutely and totally not true. 
Ms. Psaki, I think, was more candid in that assessment. And 
then you have this article comes out and basically the 
administration thought it was in their best interest to spin up 
the story that negotiations started with a more moderate regime 
in 2013, but that is not what had happened. That was fiction as 
well.
    I also want to talk about 24 by 7 access. I think the 
American people were led to believe that Americans with the 
best interest would have access and be able to see and get in 
there and go into these nuclear facilities 24/7. So I want to 
play another clip. This is clip number E or letter E.
    [Video shown.]
    Chairman Chaffetz. Thanks. You can take that down.
    So, first of all, as somebody pointed out on our committee, 
I think Mr. Palmer pointed out I don't think Mr. Kerry was the 
chief negotiator, but that is another point. But the second 
part of it is, is there 24 by 7 access? Can you access 
anything, anywhere, any time? Spinning quite a different story 
as we go along.
    We have also heard a lot of numbers related to sanctions 
relief and dealing with escrowed oil funds. President Obama was 
quoted in an Atlantic article talking about $150 billion that 
would be going back to Iran. The Iranians say they have access 
to $100 billion. The Treasury Department says it is $50 
billion. Secretary Kerry said they have only had access to $3 
billion, and then blamed Treasury, talking about a lot of money 
going to a state sponsor of terrorism.
    There are also questions about ballistic missiles. In 
December 2015 he said there was a violation of the United 
Nations Resolution 2231 in testimony by the Iran Deal 
coordinator, Ambassador Mull. But in March of 2016 you have the 
United States Ambassador Power to the United Nations who toned 
it down a little bit. Now, they are calling it just an 
``inconsistent with'' is their quote, as opposed to a violation 
of the United Nations resolution.
    Then you also have issues about boosting Iran's economy. 
Secretary Kerry is currently on tour in Europe. The State 
Department suggests that we are obligated, we are obligated, 
the United States of American is obligated to boost the Iranian 
economy, again, something we need to understand. We don't 
understand the side deals. There are still sanctions of 
terrorism on Iran. We want to understand that.
    And then there are questions about everything that has 
actually been agreed to not just in writing but the side deals 
and any other verbal commitments that were also made.
    I would also note to our colleagues that the chairman of 
Armed Services, Mr. Thornberry, has a very important amendment 
I think we should all consider and look at that will be part of 
the NDAA issue as we move forward.
    Again, there are a lot of outstanding questions. We wanted 
to get the person who is right in the thick of things from the 
White House to come here and testify. The White House on 
Thursday claimed that this wasn't about executive privilege, 
and then less than 24 hours before this hearing, they reversed 
course and said, oh, it is about executive privilege. Now, who 
is being inconsistent? Who is being inconsistent?
    You have plenty of time, Mr. Rhodes, to go out and talk to 
all the media friends and talk to the echo chamber that you 
brag about in the New York Times, but when it comes time to 
actually answer hard questions under oath did you decide not to 
do it.
    Chairman Chaffetz. My time has far exceeded what we had 
allocated. We will now recognize the ranking member, Mr. 
Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And I 
thank all our witnesses for being here today.
    Mr. Chairman, sitting here today, I am surprised and--I 
mean, very surprised and shocked that you would invite John 
Hannah to testify before our committee as an expert witness, 
particularly on the subject of false White House narratives. 
Mr. Hannah was Vice President Dick Cheney's top national 
security advisor in the White House. He personally, personally 
helped prepare Secretary of State Colin Powell's infamous 
speech to the United Nations in the run-up to the Iraq War, a 
speech that Secretary Powell has called a permanent blot on his 
record.
    Mr. Hannah was identified by the Iraqi National Congress as 
``principal point of contact'' in the Vice President's office. 
The INC was an organization that supplied our nation with 
reams, with reams of false information about weapons of mass 
destruction.
    Mr. Hannah worked directly for Scooter Libby who was 
convicted after the Bush administration leaked the identity of 
a covert CIA agent Valerie Plame. Her husband, Ambassador Joe 
Wilson, had publicly debunked the administration's false claims 
about the Iraqi nuclear program.
    This was the same Scooter Libby who told the FBI that it 
was ``possible'' that Vice President Cheney actually directed 
him to leak information about Ms. Plame's covert status. That 
is Mr. Hannah.
    Now, I don't know Mr. Hannah and I don't believe I have 
ever met him before today, but based on the public record 
alone, let me say this. If our goal is to hear from an expert 
who actually promoted false, false White House narratives, then 
I think you picked the right person. But if our goal is to hear 
from someone who was not involved in one of the biggest 
misrepresentations in our nation's history, then you picked the 
wrong person.
    Listening to John Hannah criticize anyone else for pushing 
a false White House narrative is beyond ironic. He and Dick 
Cheney and their colleagues in the White House wrote the how-to 
manual on this. The profound tragedy here is that thousands, 
thousands of U.S. service members from our districts were 
killed in Iraq and thousands more sustained terrible injuries. 
The American taxpayers have now spent hundreds of billions, 
billions of dollars even by the most conservative estimates.
    Unfortunately, Mr. Chairman, you rushed to invite Mr. 
Hannah without consulting anyone. In fact, this entire panel 
has been stacked with hand-picked witnesses who all oppose the 
Iran agreement. You did not invite prominent Republicans like 
Brent Scowcroft or Richard Lugar. You did not invite any of the 
dozens of generals or admirals or other military experts who 
support this agreement.
    Other committees have held dozens of substantive hearings 
on the Iran agreement, but do you know how many this committee 
has held? Zero. The Subcommittee on National Security held one 
last November, but that was it, nothing at the committee level. 
Yet all of a sudden now our committee is rushing to hold 
today's hearing without even the one-week notice required by 
the House rules according to the parliamentarian.
    These experts here are all repeating the same talking 
points for the same Republican political narrative. This 
committee has basically created its own Republican echo 
chamber.
    With respect to Ben Rhodes, I am struggling to understand 
the allegations against him. If I understand it correctly, 
Republicans accuse him of misleading the American people by 
claiming that nothing happened with Iran before 2013 when they 
elected a so-called moderate president. Republicans claim that 
if the Americans just knew the president was working towards an 
agreement before 2013, they would have rejected the deal.
    Of course, this is absurd. There are dozens of public press 
reports from every single year of the Obama administration 
documenting how they were working to reach out to Iran with 
varying degrees of success. All you have to do is Google it. 
From the time President Barack Obama was a candidate for 
President until today, press reports are full of accounts of 
how letters were being exchanged, meetings were being held, and 
negotiations were being launched.
    The Republicans rushed to hold this hearing not as a way to 
obtain substantive information about the merits of the Iran 
agreement or even to investigate a legitimate allegation. 
Instead, this hearing is exactly what it purports to condemn, a 
partisan narrative designed to mislead the American people. 
That is not just ironic, that is hypocritical.
    With that, Mr. Chairman, I yield back, and I thank the 
witnesses again for being here.
    Chairman Chaffetz. I thank the gentleman.
    The prime witness that we had invited, Mr. Rhodes from the 
White House, declined to come before the committee. We are 
disappointed in his failure to appear.
    The chair also notes that contingent upon Mr. Rhodes 
appearing, an invitation to appear was extended to the 
Honorable Tom Cotton, United States Senator from the State of 
Arkansas. This was done at a request of the White House. Given 
that Mr. Rhodes had refused to appear before the committee 
today, the distinguished Senator from Arkansas is also excused.
    Mr. Gowdy. Mr. Chairman?
    Chairman Chaffetz. Yes, the gentleman from South Carolina.
    Mr. Gowdy. I have an inquiry.
    Chairman Chaffetz. Yes.
    Mr. Gowdy. Is Mr. Hannah here?
    Chairman Chaffetz. Yes.
    Mr. Gowdy. Well, then why did Mr. Cummings ask him the 
questions? He will have a chance to ask Mr. Hannah whatever 
questions he wants to ask him. We don't have a chance to ask 
Mr. Rhodes the questions we want to ask because he didn't 
bother to show up ----
    Mr. Cummings. Will the chairman yield?
    Mr. Gowdy.--but Mr. Hannah did.
    Mr. Cummings. Will the chairman yield?
    Chairman Chaffetz. Yes.
    Mr. Cummings. I can say whatever I want to say in my 
opening statement.
    Mr. Gowdy. Yes, you can. It just needs to be fair.
    Mr. Cummings. And I can ----
    Mr. Gowdy. That is my point.
    Mr. Cummings. Well ----
    Mr. Gowdy. Just be fair about it. You can say what you 
want.
    Chairman Chaffetz. Gentleman will state his inquiry.
    Mr. Gowdy. I just wanted to know if he was here.
    Mr. Cummings. He is here.
    Mr. Gowdy. And you tell me he is.
    Chairman Chaffetz. I thank the gentleman.
    Mr. Gowdy. Okay.
    Chairman Chaffetz. And Mr. Rhodes is not here.
    I would also note that the Democrats were free and usually 
almost always in my experience invite a Democratic witness, but 
there is no Democratic witness today because you didn't invite 
one.
    Mr. Cummings. Will the gentleman yield?
    Chairman Chaffetz. Sure.
    Mr. Cummings. Chairman, you know for a fact that we got 
less than the notice that is required in the rules and did not 
object and went on with the hearing. You know that.
    Chairman Chaffetz. I disagree ----
    Mr. Cummings. All right.
    Chairman Chaffetz.--with the timing issue that you suggest.
    Mr. Cummings. You gave us the required time?
    Chairman Chaffetz. Yes.
    Mr. Cummings. I disagree with you.
    Chairman Chaffetz. Okay. We will sort that out. We have a 
good working relationship, Mr. Cummings and I, but ----
    Mr. Gowdy. Parliamentary inquiry.
    Chairman Chaffetz. The gentleman from South Carolina.
    Mr. Gowdy. Does the executive privilege apply to media 
interviews or only to appearances before Congress?
    Chairman Chaffetz. I don't know the full answer to that, 
but I believe they are free to talk to whoever they want to in 
the media, but they did claim in Mr. Eggleston's letter to 
claim executive privilege.
    Mr. Gowdy. So is that a yes or a no? Does it apply when you 
are being interviewed by the New York Times or ABC or CBS or 
just when Members of Congress just want to ask questions?
    Chairman Chaffetz. Evidently just when Members of Congress.
    Mr. Gowdy. I thank the chairman for that clarification.
    Chairman Chaffetz. Thank you. We are going to continue with 
the hearing. We do have Mr. Michael Rubin. He is the resident 
scholar at the American Enterprise Institute; Mr. Michael 
Doran, a senior fellow at the Hudson Institute; and Mr. John 
Hannah, senior counselor at the Foundation for Defense of 
Democracies. We welcome you all and thank you for being here.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. And if you will please rise and raise your 
right hand.
    [Witnesses sworn.]
    Chairman Chaffetz. Thank you. Let the record reflect that 
all witnesses answered in the affirmative.
    We would appreciate you limiting your verbal comments to 5 
minutes. It will give us time to ask you questions. And your 
entire written statement will be entered into the record.
    I now recognize Mr. Rubin for his opening statement.

                       WITNESS STATEMENTS

                   STATEMENT OF MICHAEL RUBIN

    Mr. Rubin. Chairman Chaffetz, Ranking Member Cummings, 
honorable members, thank you for the opportunity to testify 
here today.
    The major Iran-related issues about which the White House 
misled when selling the Iran deal were verification. The JCPOA 
loosened the standard set in South Africa and Libya. It 
embraced Iran's voluntary compliance with the additional 
protocol when previously Rouhani had bragged that voluntary 
compliance allows Iran to reverse course at any time.
    It also ignores the problem of offsite research. Have 
Iranians transferred some nuclear work to labs in North Korea? 
Under the JCPOA, we will never know.
    Another issue in which it misled was Rouhani as a moderate. 
Rouhani is no moderate. Loyalty to Khomeini's vision was a 
major theme of his campaign commercials. He stuffed his cabinet 
with veterans of the Intelligence in effect constructing not a 
reformist cabinet but a KGB cabinet. In 2005 he laid out a 
doctrine of surprise. Lull the Americans into complacency with 
dialogue and then deliver a knockout blow. Just last week, he 
offered full-throated endorsement to the legacy of Qods Force 
Chief Qassem Soleimani, Iran's master terrorist.
    It also misled about who benefits inside Iran. The real 
tragedy of the deal is it pumps money into the coffers of the 
Revolutionary Guard. History belies the idea that showering 
Iran with trade moderates the country or trickles down to 
ordinary people. Between 1998 and 2005, the European Union 
almost tripled its trade with Iran and the price of oil 
quintupled. Iran took its hard currency windfall and invested 
in its ballistic missile program and its covert nuclear 
enrichment facilities.
    Reformist President Khatami's spokesman bragged about how 
he had defeated the West. We had an overt policy, which was one 
of negotiation and confidence-building he said, and a covert 
policy, which was continuation of the activities. The person in 
charge of directing the money into the military, Rouhani in his 
capacity as chairman of the National Security Council.
    The problem goes beyond the supreme leader's investment 
arm. The economic wing of IRGC controls perhaps 40 percent of 
the economy, including every sector now open for business.
    Many of those who supported the JCPOA acknowledge it to be 
a flawed and faulty agreement but argued the alternative was 
war. This may have been crafty politics, but it undermined the 
U.S. position. By creating a binary choice between the JCPOA 
and war, Rhodes removed credibility to the notion that the 
Obama administration envisioned the best alternative to 
negotiated agreement. This played into Iranian hands because 
they knew no matter what they pushed for, Kerry would concede.
    The problem now is that what Rhodes did has become the rule 
rather than the exception. In my written testimony I detail the 
long history of diplomats and politicians lying to keep 
diplomacy alive. Too often they blame political opponents in 
the United States more than foreign adversaries for the failure 
at diplomacy.
    As I document in Dancing with the Devil: The Perils of 
Engaging Rogue Regimes, a history of the last half-century of 
U.S. diplomacy with rogue regimes and terrorist groups, as 
diplomats proceed with high-level engagement, they too often 
calibrate it to the fantasy they have constructed rather than 
reality.
    This often leads officials to avoid congressional oversight 
and, on occasion, to lie to Congress. During the 1990s, senior 
State Department officials testified that they could draw no 
direct links between Yasser Arafat and terrorism to avoid 
triggering an aid cutoff. Declassified documents show Clinton's 
peace team knew their testimony was false.
    Likewise, in 2007 during the Bush administration, 
Christopher Hill, the State Department's point man on North 
Korean issues, presented to Congress an artificially rosy 
picture of the diplomatic process with North Korea in order to 
keep support for engagement alive, no matter the truth of 
Pyongyang's behavior.
    More recently, diplomats advocating the New START treaty 
lied, both directly and by omission, to Congress in order to 
avoid reporting that Russia had been cheating on arms control 
accords.
    So what to do? Rhodes has placed the security of the United 
States and its allies at risk. Certainly, any dissemination of 
falsehoods to Congress and the American people merit a broader 
investigation. National security and Congress' credibility are 
at risk. That is not enough. In the past six decades, the U.S. 
State Department has failed to conduct lessons-learned 
exercises as to why its high-profile diplomacy with rogue 
regimes has seldom, if ever, succeeded.
    Conducting a broader review is not to criminalize policy 
debate; that would be poisonous and counterproductive. But if 
the State Department refuses due diligence, it would be 
beneficial if Congress would examine diplomacy leading up to 
the JCPOA if only to ensure that the same mistakes are not made 
for a seventh time. There should be bipartisan consensus. Even 
supporters of the deal acknowledge serious concerns about its 
flaws, so, too, do most serious arms control and 
counterproliferation experts outside of the echo chamber about 
whose crafting Rhodes bragged.
    One final point if I may, I'm concerned that perhaps by 
creating an echo chamber and solely talking to people within 
it, in effect what Rhodes did was create a propaganda operation 
in which he entrapped none other than Secretary of State John 
Kerry. Did Secretary of State Kerry talk to people outside the 
echo chamber? If not, he's a victim of Ben Rhodes as well.
    Thank you.
    [Prepared statement of Mr. Rubin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. I thank the gentleman.
    I will now go to Mr. Doran of the Hudson Institute. You are 
now recognized for 5 minutes.

                   STATEMENT OF MICHAEL DORAN

    Mr. Doran. Chairman Chaffetz ----
    Chairman Chaffetz. Sorry, microphone there, please.
    Mr. Doran. Thanks. Chairman Chaffetz, Ranking Member 
Cummings, members of the committee ----
    Chairman Chaffetz. Sorry, if you can move that microphone 
right up close and comfortable. There you go. Thank you.
    Mr. Doran. Thank you for inviting me to address some of the 
problems raised by the recent profile New York Times Magazine 
of Ben Rhodes, the deputy national security advisor for 
strategic communications. Mr. Rhodes admitted to the New York 
Times that he created a war room of some two dozen detailees 
from around the executive branch who came to the White House 
and monitored all communications--all public communications 
about the Iran deal, communications coming out of the--Capitol 
Hill, the think tank world, on social media, and in the 
traditional media.
    He also created what he called an echo chamber. That was a 
network of sympathetic NGOs, think tanks, and pliant members of 
the press to whom he ceded narratives, false narratives I would 
say, about the Iran deal, and then he directed the reporters to 
these NGOs and think tanks to give seemingly independent 
verification to the narratives that he put out.
    In my view, the creation of the echo chamber and the war 
room does constitute a deception of the American people and of 
their representatives. But the question is what were--what 
exactly was the nature of the deception? And I think to 
understand that we have to understand the larger policy 
context, and that is that the strategic goal of the President 
was to carry out a detente with Iran. It was to end the 
conflict with Iran as a necessary precondition to pulling the 
United States back from the Middle East because ending the 
military engagement in the Middle East, I think, is the 
President's overall goal.
    Now, if the President had been up front about this with the 
American people and said that he wanted to A) pull the United 
States out of the Middle East and B) make Iran part of the 
security architecture of the region, he would have encountered 
immediately a severe political backlash that would have 
undermined his whole project. And former Defense Secretary 
Panetta, former chief of the CIA Panetta said as much to the 
New York Times Magazine.
    Now, that's the need for a propaganda operation that--to 
deceive the American people. It's not just to misrepresent 
what's in the Iran deal but to misrepresent everything else 
that's around it that is the strategic goal of the President in 
the Middle East.
    I'd like to say a few words if I may about what I think 
were the--what is the anatomy of the deception, that is the 
main lines of false narrative that the war room and echo 
chamber put out. And in my prepared statement, I go into more 
detail about this. I'll just summarize here five major points.
    Number one, conjuring moderates. The echo chamber created 
the impression that Hassan Rouhani, the president of Iran, was 
a moderate coming to power, representing a wave of moderation 
in Iran, a desire to fundamentally change relations between 
Iran and the West. This narrative of the moderates coming to 
power and the need to support the moderates has been the gift 
that keeps on giving to President Obama's diplomacy. It creates 
a pleasing story of a breaking down of barriers. It creates a 
moral equivalence in political terms between those who are 
critical of the deal in the United States and hardliners, the 
supposed enemies of Rouhani in Iraq.
    And, importantly, it makes--it lulls us into a false sense 
of security about all of the concessions that we have made to 
Iran, and in particular, the sunset component of the nuclear 
deal, which gives Iran effectively in 10 years a completely 
legitimate program and the ability to move--nuclear program, 
and the ability to move quickly toward a weapon. If Iran is 
moderating, if we have--if we are supporting a process of 
moderation in Iran, then allowing it to have these capabilities 
is really no danger.
    The second deception is falsifying the chronology of the 
negotiations, which began much earlier than the election of 
Rouhani. They go back to July 2012, and they were initiated by 
the United States.
    The third deception is erasing concessions from the United 
States along the lines of what Dr. Rubin just discussed.
    The fourth is hiding the regional cost. The President has 
in effect recognized Syria as an Iranian sphere of influence, 
and one of the goals of the deception of Mr. Rhodes is to 
prevent people from connecting the dots between the Syria 
policy and the Iranian nuclear policy.
    And the fifth part of the deception is blaming allies. The 
White House on background and in public is very willing to 
criticize our Sunni allies as creating sectarian extremist in 
the region. It's willing to criticize in very derogatory terms 
Prime Minister Netanyahu of Israel. It never criticizes the 
Iranians. You never hear a word from the White House about what 
the Iranians are doing in Syria in pursuit of the--in support 
of Assad's murder machine.
    I'll just sum up now by what I think we need to do about 
this, and I would say two points. Number one, I agree with you, 
Chairman Chaffetz, that we do not actually know what is in the 
Iran deal. We still to this day don't know, and I completely 
agree with your assessment about the activities of Secretary of 
State Kerry. In Europe last week, he was in Europe drumming up 
business for the Iranians, and the Iranians are saying that 
this is part of the deal. Is it part of the deal or is it not? 
We don't know. So I would support further investigation.
    And then secondly, I think we have to trim the size of the 
NSC. It just--I don't see how anyone who looks at this and sees 
a war room of 22 detailees from around the executive branch in 
the White House with the job of monitoring communications and 
creating a false narrative in the media is a legitimate part of 
the NSC's mission. The NSC should be a coordinating body. It 
should not be a muscular imperial body running roughshod over 
all of the executive branch.
    So I would add my voice to those who are saying that the 
NSC should be cut back severely from the 400 members it 
currently has to something more like 100.
    Thank you.
    [Prepared statement of Mr. Doran follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize Mr. Hannah for 5 minutes.

                    STATEMENT OF JOHN HANNAH

    Mr. Hannah. Chairman Chaffetz, Ranking Member Cummings, 
members of the committee, on behalf of the Foundation for 
Defense of Democracies, thank you for the invitation to testify 
on the Iran nuclear deal.
    For me as a foreign policy analyst, perhaps the most 
important revelation made in the recent New York Times profile 
of Ben Rhodes was its allegation concerning President Obama's 
overriding strategic purpose in seeking a nuclear deal with 
Iran, a purpose which until now has been largely concealed from 
the American people.
    According to the article, ``By eliminating the fuss about 
Iran's nuclear program, the administration hoped to eliminate a 
source of structural tension between the two countries, which 
would create the space for America to disentangle itself from 
its established system of alliances with countries like Saudi 
Arabia, Egypt, Israel, and Turkey. With one bold move, the 
administration would effectively begin the process of a large-
scale disengagement from the Middle East.''
    Now, if accurate, this is truly a stunning admission with 
very big implications. As suggested elsewhere in the article, 
it does represent nothing less than a radical shift in American 
foreign policy. According to the article, Mr. Rhodes' passion 
for the Iranian nuclear deal did not derive from any investment 
in the technical details of sanctions or centrifuges or the 
future of Iranian politics but rather ``from his own sense of 
urgency of radically reorienting American policy in the Middle 
East in order to make the prospects of any American involvement 
in the region's future wars a lot less likely.''
    Now, whether you agree or disagree with this inclination to 
step back from the leadership role that the United States has 
played in the Middle East since World War II, the troubling 
fact remains that this fundamental shift in American strategy 
has never been openly communicated to the American people. It 
has never been debated by the U.S. Congress and it has never 
been revealed to America's long-time allies in the Middle East.
    Determining whether or not this very substantive claim is 
true, that is, whether the White House is now in reality 
seeking to engineer a large-scale American disengagement from 
the Middle East is a question of vital importance to U.S. 
national interests, again, whether you agree with it or 
disagree, and it's one that I think the Congress should seek 
clarification on.
    If, in, fact the nuclear deal with Iran is as Mr. Rhodes 
suggests, the center of the arc for President Obama's efforts 
to radically transform U.S. policy, it raises a host of 
concerns. Certainly, it casts doubt on the administration's 
repeated claim that no deal was better than a bad deal. To the 
extent that the preeminent objective instead, in Mr. Rhodes' 
view, was to ``eliminate the fuss about Iran's nuclear 
program'' rather than to actually eliminate that program 
itself, one wonders whether the administration did demand or 
had a tough enough posture in negotiations as it might 
otherwise have been.
    Similar concerns, I think, exist now that the deal is in 
place and being implemented. When Congress was reviewing the 
JCPOA last summer, the administration made repeated assurances 
to the Congress that it would vigorously enforce the agreement 
while using every tool at its disposal to counter Iranian 
terrorism, its destabilizing regional activities, ballistic 
missile program, and human rights abuses.
    Since then, however, Iran's bad behavior has dramatically 
escalated. It has significantly increased its combat role in 
Syria, it's increased--or it's arrested additional U.S. 
citizens, conducted multiple ballistic missile tests, it's 
fired rockets in very close proximity to U.S. ships in the 
Persian Gulf, held 10 American sailors captive, and threatened 
to close the Straits of Hormuz.
    The U.S. response to these repeated provocations, despite 
the administration's earlier assurances, has so far ranged from 
quite tepid to nonexistent. Even more worrisome, perhaps, has 
been the reported U.S. willingness to at least contemplate 
granting Iran additional sanctions relief that it failed to 
negotiate in the JCPOA. Specifically, Iran is demanding access 
to dollarized financial transactions. This would be a huge 
unilateral concession that would greatly expand Iran's ability 
to do business internationally while legitimizing an Iranian 
banking sector that remains mired in elicit financing 
activities.
    Let me close by stressing that especially in light of the 
questions raised by the New York Times profile about what 
America's true underlying purpose is in pursuing the Iran deal, 
it's extremely important that Congress now hold the 
administration's feet to the fire when it comes to the 
commitment to combat Iran's continued aggression. At a minimum, 
Congress should do everything in its power to ensure that Iran 
receives no new sanctions relief in the absence of significant 
new Iranian concessions. And far more aggressive use should be 
made of nonnuclear sanctions to constrain Iran's expanding 
ballistic missile program and deter the Iranian Revolutionary 
Guard Corps from their destabilizing activities in Syria, Iraq, 
and Yemen.
    The bottom line is that the United States should not be 
sending Iran the message that we now place such a high premium 
on its continued adherence to the nuclear deal that it will 
have carte blanche to pursue its increasingly threatening 
policies in other areas that endanger our interests and those 
of our allies.
    Thank you again, Mr. Chairman, for the opportunity to 
testify. I know this is the place where I would normally say I 
look forward to your questions, but maybe more appropriately I 
stand by and am ready to try and answer your questions.
    [Prepared statement of Mr. Hannah follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Fair enough. I think that is a fair 
summary of where we are at.
    I will now recognize myself for 5 minutes.
    Mr. Rhodes I wish were here. He has a unique perspective. 
He said some truly amazing and over-the-top things that were 
quoted in the New York Times. I haven't heard anything refute 
that. One of the ones that I think would concern all of us is 
this quote that he said on the fourth page of this article. He 
says--it is printed out--``I don't know anymore where I begin 
and Obama ends.'' That is a true--if you really think and let 
that settle in, that is a truly stunning statement.
    He also said some other things that I think are very 
concerning. ``All these newspapers used to have foreign 
bureaus,'' which I think he makes a good point on that. And 
then he says, ``now, they don't. They call us to explain to 
them what is happening in Moscow and Cairo. Most of the outlets 
are reporting of world events from Washington. The average 
reporter we talk to is 27 years old and their only reporting 
experience consists of being around political campaigns. That 
is a sea change. They literally know nothing.''
    He went on to say--Mr. Rhodes said, ``But then there are 
these sorts of force multipliers. We have our compadres. I will 
reach out to a couple people and, you know, I wouldn't want to 
name them''--and then he goes on and--anyway, it is really 
interesting in his approach.
    That is one component, but you compile that on top of what 
you also hear former Secretary Panetta said. This is what 
Secretary Panetta said. And this is a quote from Panetta. ``And 
you know my view, talking with the President was--if I brought 
it to the point where we had evidence that they are developing 
an atomic weapon, I think the President is serious that he is 
not going to allow that to happen.'' But then Panetta stops 
according to the article, and the authors says, ``But would you 
make that same assessment now?'' And Secretary Panetta's quote 
is ``I would make the same assessment now? Probably not.'' 
Probably not. So he said it once. I have repeated it twice, but 
this is of what is deep concern.
    I think it would be naive to just gloss this over and say, 
hey, we got this deal, it is in the best interest of the United 
States, it is not something that was fully brought before the 
Congress. I would hope that we would walk out with an 
understanding from the three of you as what those big 
outstanding questions are.
    But maybe somebody could shed some light on these so-called 
side deals, these things where Iran has maybe made other--do 
you have any insight, Mr. Doran, any of you, on what these so-
called side deals might be?
    Mr. Doran. No. There's what we have uncovered, but as time 
goes on, as time goes on, we keep finding out more and more 
that wasn't in the text, and of course the Obama administration 
says there is nothing else. But the Iranians are saying that 
there is a larger deal in particular with regard to access to 
dollars and expanding their economy. And the behavior of our 
officials suggest that they are right. Our officials say that 
the Iranians are not correct, but here we have Secretary Kerry 
in Europe last week meeting with banks trying to get them to 
overlook concerns about Iran's illicit activities and to drum 
up business for Iran.
    So there's a mismatch here between what we're saying and 
what we're doing, but what we're doing actually does match 
quite closely with what the Iranians are saying, and that's 
been a characteristic of the deal from day one. The deal has 
been shaped by the red lines of the supreme leader and not by 
the red lines of the President of the United States. So our red 
lines have dropped all along the way and the Iranians have 
stayed consistent with theirs.
    Chairman Chaffetz. Mr. Rubin?
    Mr. Rubin. Very quickly, the JCPOA is almost like a 
timeshare agreement where you sign the deal and then you'll 
only find out then what the true costs are. One of the subjects 
for oversight would be with regard to changing the language 
restricting Iran's ballistic missile work. Was it a deliberate 
concession or was it the result of incompetence?
    What troubles me mostly is how we seem to be having become 
Iran's lawyer. For example, the Iranians will now complain that 
we are not enabling enough openings for their economy, and yet 
what didn't hit the Western press was last week the Iranians on 
the order of the supreme leader canceled an order, $20 
million--I'm sorry, $2 million for Chevrolets. And the answer 
was we shouldn't be doing business with the Americans. Who's 
kneecapping the Iranian economy, us or the Iranians? It's time 
to have the Iranians stop blaming other people and take 
accountability to themselves.
    Chairman Chaffetz. Thank you. My time is expired.
    I now recognize the ranking member, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Mr. Hannah, you were Dick Cheney's top national security 
advisor, is that right?
    Mr. Hannah. Yes, sir, from 2005 to 2009.
    Mr. Cummings. And your office was ground zero in the Bush 
administration's marketing campaign to sell the Iraq War to the 
American people. Is that a fair statement?
    Mr. Hannah. No, I don't think it is. We--as you said, we 
played an important role in making the first draft of Secretary 
Powell's speech to the United Nations. That was certainly true 
----
    Mr. Cummings. Okay.
    Mr. Hannah.--but we ----
    Mr. Cummings. So you were involved in making the first 
draft, is that right?
    Mr. Hannah. Yes, that's correct.
    Mr. Cummings. Is this pretty much the draft that he 
presented to the United Nations? I mean ----
    Mr. Hannah. It ----
    Mr. Cummings. I know a first draft usually goes through 
many more drafts but ----
    Mr. Hannah. Sure. Sure. It--I thought there were some 
similarities in it. If you actually hear some of Secretary 
Powell's people tell the story now, they say my draft was 
filled with inaccurate intelligence reports, reports that 
couldn't be supported by the intelligence community, so at the 
end of the day they threw out my draft. Secretary Powell then 
spent four days with the highest levels of our intelligence 
community at Langley doing a new draft that he said was 
primarily based on the intelligence community--community's NIE. 
So I--their claim is that there were no--that my draft did not 
actually form the foundation of what he presented to the United 
Nations.
    Mr. Cummings. I am sure having heard that, I am sure you 
probably said then let me at least listen to what he did say, 
is that right? Did you read his ----
    Mr. Hannah. Oh, sure. No, I ----
    Mr. Cummings. Okay.
    Mr. Hannah. Yes, I did. Absolutely.
    Mr. Cummings. And was there any mention of weapons of mass 
destruction in your draft as compared to the final draft of 
Secretary Powell?
    Mr. Hannah. Yes, I think both of our drafts were entirely 
focused on weapons of mass destruction.
    Mr. Cummings. And what would you say was the difference 
because he seemed like he was very disappointed with the 
information that you had provided him and said that it was a 
blot on his reputation and pretty much said, you know, until 
the day he dies he is going to regret it. But I am just 
curious.
    Mr. Hannah. Just a correction, first of all, when he said 
it was a blot, I think he was talking about what he presented 
to the United Nations. I don't think he was talking about the 
draft that I presented him. It's what he did with George Tenet 
and the rest of the intelligence community that he ended up 
presenting that was obviously filled with errors. Most of it 
was wrong.
    My draft--the instruction to me when I started that draft 
was that you need to go look at all of the intelligence there 
is, including raw intelligence, which we regularly got at the 
White House, which were individual reports by individual 
intelligence sources. I did that and put it into a draft, and 
then have the intelligence community look at that draft and 
decide what pieces of intelligence could they support, which 
ones weren't they able to support. That source was not 
reliable, didn't have enough of a reliable record of reporting, 
and they would throw it out. So I wrote the draft knowing that 
large segments of it would be thrown out because the 
intelligence community just didn't have the necessary 
confidence level in that reporting.
    Mr. Cummings. Now, let me read what Secretary Powell's 
chief of staff said about your document. I take it that is the 
first draft. He said, ``Hannah was constantly flipping through 
his clipboard trying to source and verify all the statements. 
It was clear the thing was put together by cherry-picking 
everything.'' In fact, they discovered that you did not use a 
DIA report properly, you did not cite a CIA report fairly, and 
you referenced a New York Times article that quoted an 
intelligence report out of context.
    So they scrapped, as you said, your entire document. And 
the Secretary's chief of staff described it in this way. He 
said, ``Finally, I threw the paper down on the table and said 
this isn't going to cut it.'' Now, this was the chief of staff, 
right, for Secretary Powell. How could you have given him such 
a document that appears in his opinion to have been baseless 
and misleading?
    Mr. Hannah. Well, I mean, there's a long history to this. 
It was Mr. Wilkerson, Colonel Wilkerson ----
    Mr. Cummings. Yes, I ----
    Mr. Hannah.--who was his chief of staff.
    Mr. Cummings. That is correct.
    Mr. Hannah. He has a long record of--that anybody can go 
read about his views of the Iraq War and his regrets and deep 
regrets. I think we just have a different view of the draft I 
presented.
    I do acknowledge that it included an awful lot of stuff 
that I knew that came from the intelligence community that they 
would not be able to support. If they thought it wasn't used 
properly, they could use it properly if they thought it was 
useful. So we just have a basic, I think, difference of view 
about what I actually provided and what the purpose of my draft 
was. It wasn't meant to be a final draft, the final word that 
would go to the United Nations. It was meant to be a rough 
draft that the intelligence community would go through with a 
fine-tooth comb and pick out those parts that they thought were 
the--made the strongest case that in fact Saddam did have 
weapons of mass destruction.
    Mr. Cummings. But it wasn't just Mr. Wilkerson. It was also 
George Tenet who reportedly turned directly to you--and I am 
sure you will remember this--and said ``you wasted a lot of our 
time.'' Is that true, and did he say that, George Tenet?
    Mr. Hannah. He certainly didn't say it to me. He may have--
certainly, I can easily see him saying that kind of thing, but 
he didn't say it to me.
    Mr. Cummings. All right. Thank you very much.
    Chairman Chaffetz. I now recognize the gentleman from 
Michigan, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chair, and thanks to the panel 
for being here. We wish that there were other members of 
course.
    Mr. Doran, in your testimony you discuss the need to 
restore checks and balances and note that while Mr. Rhodes' 
behavior is scandalous, and I think propaganda is a word that 
you used, it wasn't a rogue operation but that he was carrying 
out the will of the President. Questions that I am sure my 
constituents representing them here in the people's House would 
want me to ask in reference to this is, number one, how can 
Congress take steps to prevent this President and future 
Presidents from circumventing Congress?
    Mr. Doran. I think this is part of the inherent tension in 
our government. I did say that I think that the--Mr. Rhodes is 
doing the bidding of the President. I think it's important to 
remember that. We have now numerous accounts from--mainly from 
former Defense Secretaries Panetta and Gates especially, 
showing how there's an inner core in the White House of five or 
six people who consult closely with the President about his 
views, and everybody else is pretty much left out of the 
conversation, including principals on the National Security 
Council. And Mr. Rhodes is part of that inner circle.
    The only answer I have to this--I spent a lot of time 
thinking about it. The only answer I have are the two that I 
gave you. One is over--just exercising the oversight 
responsibilities that Congress has, asking the hard questions, 
and continuing to put pressure on the executive branch to come 
clean.
    The second is, I think, cutting back the size of the NSC. 
It's simply wrong. I think anyone on both sides of the aisle 
would see that the National Security Council, created by 
statute in 1947, was created to be a coordinating body, not an 
operational arm of the government. And under President Obama, 
it has slipped into becoming an operational arm.
    And I think when you look at the war room, as described not 
by me but by Mr. Rhodes, this is an operational White House.
    Just one last point here, there's an issue here that I 
think there's--we all just need to be aware of, but there's not 
much we can do about it, and that is the collapse of the press. 
So one of the reasons why this is a threat to our checks and 
balances is because of the collapse of, I would say, certain 
informal checks on governmental power that have disappeared 
over the last decade, you know, very, very quickly because of 
the rise of the internet.
    What Ben Rhodes said in that article about foreign events 
being reported from Washington and from the White House by 
young reporters who don't know anything and don't have any 
other sources of information except what the White House is 
telling them is completely correct, and it's a danger. There's 
not much in terms of legislation that we can do about that, but 
we need to be aware of it.
    It's sort of a double danger because not only do those 
reporters not have alternative sources of information, but 
because all of the information is coming out of the White 
House, they have a special interest in maintaining good 
relations with the White House, and reporting the news stories 
as the White House wants it reported.
    Mr. Walberg. Well, let me go on from that as well, and, Mr. 
Rubin, you may want to jump in here as well. Ben Rhodes' 
assistant in the article--in his report--his comments in the 
New York Times Magazine article indicated that there were 
compadres involved in this, and some of those were in the think 
tank community as well. Who would he be referring to in a think 
tank and policy world?
    Mr. Rubin. The Ploughshares Fund.
    Mr. Walberg. The what?
    Mr. Rubin. The Ploughshares Fund has funded many of the 
elements of the so-called echo chamber, to use Ben Rhodes' 
words, supposedly neutral assessors, for example, in various 
arms control think tanks, perhaps in the Atlantic Council as 
well and elsewhere were receiving grants. Now, one can say just 
because one has received a grant from this high-level funder--
and by the way, this funder also had provided grants to senior 
Iranian officials working in the United States as well at 
universities and so forth--just because they have funded 
doesn't necessarily mean that there's a quid pro quo, but what 
you will find is that anyone who has received Ploughshares 
funding, especially for the bulk of their grant or the bulk of 
their salary, never, not once contradicted the assessment which 
Ben Rhodes sought to put forward.
    Mr. Walberg. Thank you. I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Thank you.
    After a good deal of deliberation and research, I voted 
against the Iran nuclear deal. And at the time I was hoping 
very much that I was wrong, but everything that has happened 
since and the additional information that has come forward, it 
literally has convinced me that I made the right decision.
    But I have to say as a Member who took the time to 
carefully study the plan before making a decision, as I believe 
all of my colleagues did, I had absolute, complete access to 
all documents. I read every document, even classified 
documents. Every meeting was addressed in various areas. The 
administration bent over backwards to provide accurate 
information to us.
    And I must say that this was one of the most hotly debated 
issues that I have experienced since I have been in Congress, 
but both sides were deeply involved in putting forward their 
cases. There were demonstrations, there were petitions, there 
were meetings, there were conferences, there were debates. It 
was completely and totally open to everyone to learn and to 
make their own decision.
    So my colleagues on the other side of the aisle are now 
taking another opportunity to attack the administration with a 
futile fishing expedition based on a widely questioned New York 
Times profile of an advisor to President Obama. I believe it is 
quite a stretch to suggest that the White House building a 
comprehensive information campaign to support a major foreign 
policy initiative amounts to any way misleading the American 
people.
    And I find it incredibly hypocritical to invite Mr. Hannah, 
who worked for Dick Cheney and helped market the Iraq War based 
on false pretenses to come now before us as an expert witness 
on an alleged false White House narrative. I find the hypocrisy 
really beyond belief.
    And I would like to ask Mr. Hannah, do you know who Scott 
McClellan is? Yes or no.
    Mr. Hannah. Yes.
    Mrs. Maloney. Yes. Well, Scott ----
    Mr. Hannah. Yes.
    Mrs. Maloney. Other people may not know, but he was the 
White House press secretary, and he wrote a book about his 
experience. He explained how a small group of advisors called 
the White House Iraq working group helped sell the Iraq War by 
misleading the American people.
    And I am quoting from President Bush's press secretary. He 
said, ``The White House Iraq group had been set up in the 
summer of 2002 to coordinate the marketing of the war to the 
public.'' And, Mr. Hannah, wasn't Scooter Libby your boss and 
Dick Cheney's chief of staff? Weren't they part of the Iraq 
group?
    Mr. Hannah. The Vice President wasn't. I think Scooter 
Libby was. I'm not 100 percent sure, but I think you're right.
    Mrs. Maloney. Yes. Yes. Well, Scott McClellan further 
wrote, he explained exactly how you and others misled the 
American people. And he said this, ``As the campaign 
accelerated, qualifications were downplayed or dropped 
altogether. Contradictory intelligence was largely ignored or 
simply disregarded.''
    So, Mr. Hannah, why did you ignore and disregard evidence 
that contradicted your political narrative for the war?
    Mr. Hannah. Congresswoman, I would just say that, you know, 
to the extent that I got it wrong in believing that Saddam had 
weapons of mass destruction, an awful lot of people got it 
wrong. It was not a figment of the imagination ----
    Mrs. Maloney. Sir, are you saying ----
    Mr. Hannah.--of the Vice President's office.
    Mrs. Maloney.--that Mr. McClellan was wrong in the book 
when he said he misled and lied to the American people, this 
group?
    Mr. Hannah. All I can tell you is that there have been 
bipartisan commissions that have looked at how--the 
intelligence on weapons of mass destruction ----
    Mrs. Maloney. Do you think ----
    Mr. Hannah.--that came to the conclusion that the President 
of the United States did not lie about ----
    Mrs. Maloney. I am not talking about him ----
    Mr. Hannah.--evidence of weapons of mass destruction.
    Mrs. Maloney.--I am talking about McClellan. Was McClellan 
wrong? Was he misinformed? Was he lying ----
    Mr. Hannah. I may have had one ----
    Mrs. Maloney.--when he wrote we were misleading the 
American people. We downplayed any ----
    Mr. Hannah. I ----
    Mrs. Maloney.--contradictory information?
    Mr. Hannah. I--Congresswoman, I haven't read his book. All 
I can tell you is that a lot of people who know Scott very 
well--I don't know Scott at all really ----
    Mrs. Maloney. Okay. Are you saying ----
    Mr. Hannah.--have contradicted his presentation.
    Mrs. Maloney. Okay.
    Mr. Hannah. They believe he was wrong in his judgments and 
he ----
    Mrs. Maloney. Are you saying that you did include 
contradictory intelligence showing that your case was weak or 
nonexistent?
    Mr. Hannah. No. I think we were instructed to write what we 
thought was the best case for why Saddam had weapons of mass 
destruction.
    Chairman Chaffetz. The gentlewoman's time is expired.
    Mrs. Maloney. No, I have 21 seconds left according to this.
    Chairman Chaffetz. No, your--that is ----
    Mrs. Maloney. So I would just like to ----
    Chairman Chaffetz. No, no, no, no, you are 27 seconds over 
time.
    Mrs. Maloney. Oh, okay.
    Chairman Chaffetz. Thank you.
    Mrs. Maloney. All right.
    Chairman Chaffetz. I now recognize the ----
    Mrs. Maloney. Well, I would like to put my closing 
statement in the record. It is a zinger, and it is very 
hypocritical, Mr. Chairman.
    Chairman Chaffetz. No, no--you know, Mr. Hannah is here to 
answer questions. Mr. Rhodes is not here to answer questions. 
That is what is difficult about this hearing.
    We will go to Mr. Gosar now of Arizona. I recognize him for 
5 minutes.
    Mr. Gosar. Thank you, Mr. Chairman.
    Mr. Rubin, Mr. Doran, and Mr. Hannah, thank you for your 
testimony and for providing valuable information to this 
committee, which sheds light on the deceptive manner in which 
the Obama administration sold out the American people and our 
allies across the globe with the Iran capitulation agreement.
    Even when presented with the facts like the facts each of 
you have laid out in your testimony, the administration box 
doubles down and tries to discredit anyone who disagrees with 
their false narrative, including me. When asked about Ben 
Rhodes' revelatory interview with the New York Times Magazine, 
Press Secretary Josh Earnest dodged and decided to lambaste 
several Members of Congress, including me, as liars, truly 
eliciting Alinsky's principles to their core.
    Why? Because I said that under this illegal Iran deal and 
lifting sanctions that Iran would be able to access up to $100 
billion that was previously frozen. His Treasury Secretary Jack 
Lew stated the sanctions relief would be worth about $100 
billion. The President of Iran said his country would get $100 
billion.
    Despite the fact that I said something similar in September 
of 2015, the White House is now trying to brand me as a liar in 
attempting to deflect Ben Rhodes' recent statements. The point 
is not whether it is $100 billion or $50 billion or whether it 
is all at once or over a period of time.
    The real problem is that President Obama is funding the 
world's largest state sponsor of terrorism. Iran is no friend 
to the United States, to Christians, to Jews, or even Sunni 
Muslims. Iran is a rogue nation hell-bent on nuclear war in the 
Middle East.
    A responsible President who loves his country and supports 
our allies would never lift sanctions and give this murderous 
regime money, much less billions. This deal is a strain on our 
national character. Our next President we can only hope will 
terminate this nonsense and promote freedom, accountability, 
and opportunity overseas, not a regime that stones women, hangs 
homosexuals, and kills members of other religions and political 
beliefs.
    White House Press Secretary Josh Earnest suggested I show 
up to the Oversight Committee. Well, here I am. Where is Ben 
Rhodes? I guess you can run and hide.
    Now, Mr. Doran, much of the news coverage recently had 
focused on Mr. Rhodes and the lies and misinformation that he 
had spun relating to the Iran deal. However, we know that no 
one operates in a vacuum. Does Mr. Rhodes represent a rogue 
employee of the White House or does this spin campaign 
represent something more deeply about how the White House 
handled the Iran deal?
    Mr. Doran. I believe it represents the President's 
strategic vision and the President's will. He--the President is 
on record as early as 2006 saying that he wanted to improve 
relations with Iran and Syria and that he saw Iran and Syria as 
sharing core interests and stabilizing Iraq and that we should 
work with them to do that.
    I don't think he ever lost that. I think ----
    Mr. Gosar. So you would say that he actually is ultimately 
responsible for developing this frame of capitulation?
    Mr. Doran. Absolutely. And it's the--that's the key factor 
to understand why we made all of these concessions to Iran 
because we're not actually trying to stop it from getting a 
nuclear weapon. We're trying to develop a partnership with it.
    Mr. Gosar. Yes. Unfortunately, as you said, the lies and 
misrepresentation that are deeply woven deep within the Iran 
capitulation agreement are just the latest example of a culture 
of deception that has been this administration's MO since its 
inception. Let's not forget that this is the same 
administration that sold the American people out to the 
insurance companies under the guise of health care reform. The 
President's congressional minions drove a legislative garbage 
truck full of special interest giveaways through Congress and 
over Americans' pocketbooks by knowingly and willfully 
repeating the lie, ``If you like your doctor, you can keep your 
doctor.''
    This is the same administration that blatantly violated 
Federal law by engaging in unlawful lobbying in order to 
promote its Waters of the United States regulation. The 
Government Accountability Office confirmed that the executive 
branch, under the direction of EPA Administrator McCarthy, 
unleashed an illegal propaganda campaign in order to force 
WOTUS down the throats of the American people.
    Mr. Rubin, it is clear that the Obama administration had a 
covert agenda to reach a deal with Iran at any cost that was 
driven more by the optics of diplomacy and legacy than the real 
facts on the ground. What are the dangers of such a narrative-
driven approach to policy-making?
    Mr. Rubin. When one calibrates policy to a fantasy that is 
constructed rather than to reality, the cost is often paid with 
blood. Iran has not become any less of a terror sponsor as a 
result of the JCPOA. In fact, if we take the--if we just take 
the $50 billion figure, that's 10 times the annual official 
budget of the Islamic Revolutionary Guard Corps.
    One thing I would do, sir, productively, is take the 
ability of the State Department, take the ability to designate 
state sponsors of terrorism out of the hands of the State 
Department and put it in an independent commission so it 
doesn't become a political football.
    Mr. Gosar. I thank the gentleman. And this behavior has 
become the status quo for an Obama administration that has 
blatantly disregarded the rule of law and the respect for the 
American people to enact its partisan agenda. It is a dangerous 
precedent and it needs to be stopped by Congress.
    Thank you, Chairman.
    Chairman Chaffetz. The gentleman's time is expired.
    I will now recognize the gentlewoman from the District of 
Columbia, Ms. Norton, for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman.
    Now, we can re-litigate the Iran deal as much of the 
testimony attempted to do or we can discuss the central 
allegation that brought us to this hearing. It is of course--
and that is what I would like to pursue, that essentially 
Republicans, my colleagues accuse Ben Rhodes of misleading the 
American people by claiming that the Obama administration began 
negotiating the deal, and the operative year is 2013 after Iran 
elected a so-called moderate president. The claim is that if 
the American people knew that the President was working towards 
the agreement before 2013, they would have rejected the deal.
    So here is how the claim is worded in the New York Times 
Magazine, that Rhodes ``shaped the story'' of the Iran deal, 
that the Iran deal began in 2013 when a moderate faction within 
the Iranian regime beat the hardliners, leading to an election 
where there was ``more openness.''
    So the author says that Mr. Rhodes claimed the story began 
in 2013. That is what brought us here, gentlemen. But the 
problem is that isn't true. The President's efforts with 
respect to Iran were widely reported from the time he became 
President, so I am going to ask that a clip from the Washington 
Post 2008 when the President became President be posted. It 
describes how the Iranian President wrote to President Obama 
after he was elected in 2008.
    Now, you are all a panel of so-called experts. I assume you 
read the Washington Post on occasion. Were you not aware of 
this 2008 report? Were any of you unaware of that 2008 report?
    Mr. Hannah. I don't remember the report exactly, 
Congresswoman, but I think you're exactly right that in fact 
everybody knew going into that election that President Obama 
had made clear that he thought he would be the one to end our 
three-decade-old war ----
    Ms. Norton. But this is about ----
    Mr. Hannah.--with the Islamic Republic.
    Ms. Norton.--negotiating the agreement itself and about 
being in touch with the Iranian regime before there was a 
regime change.
    Let's go to the Washington Times in 2009. I assume you read 
the Washington Times. It describes how President Obama sent two 
letters to Iran's supreme leader, Ayatollah Khomeini. Now, that 
is 2009. This is well before 2013. There are many reports from 
every year of the administration. This is why this hearing 
befuddles me.
    Two thousand ten from The Economist, Mr. Obama says the 
various components of his policy should not be seen in 
insolation. First, he tried to engage Iran early and directly 
not because he was naive about the regime but in order to make 
clear to the world that America was not the aggressor and he 
was willing to work with Iran if it behaved reasonably.
    Two thousand eleven from The Atlantic, ``On three occasions 
in as many years U.S. diplomats have sat down''--this is 2011--
``with high-level Iranian officials to discuss confidence-
building measures as part of a six-party body negotiating 
issue.''
    Two thousand twelve--all of this is before 2013--United 
States and Iran have agreed in principle for the first time to 
one-on-one negotiations from Iran's nuclear program. Now, you 
are supposed to be experts. Some other experts not invited here 
have said that it is nonsense that only after regime change did 
the President begin to negotiate.
    Joe Cirincione, the president of Ploughshares Fund, called 
it utter nonsense. Suzanne Maloney of the Brookings Institution 
agreed, and she explained the core claims of official deception 
around the Iran deal were never actually substantiated.
    Now, none of these experts, so that we could have some 
balanced picture, were called here. Unfortunately, Mr. 
Chairman, by not inviting these experts, we are getting a very 
one-sided story ----
    Chairman Chaffetz. Will the gentlewoman yield?
    Ms. Norton. I will yield to the chairman.
    Chairman Chaffetz. Democrats always, always have an 
opportunity to invite a witness to come to this hearing. 
Democrats chose not to invite a witness to this hearing. And 
the person we called from the White House, Mr. Rhodes, also 
refused to show up.
    Ms. Norton. I understand, Mr. Chairman, and the ranking 
member has already indicated that had there been time ----
    Chairman Chaffetz. I am just responding to your ----
    Ms. Norton. That had there been time, there would have been 
a Democratic witness. I thank you very much, and I yield back.
    Chairman Chaffetz. I will now recognize the gentleman from 
Ohio, Mr. Jordan, for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Gentlemen, are any of you familiar with the name Jonathan 
Gruber? Mr. Doran, do you know Jonathan Gruber? Do you know 
that name?
    Mr. Doran. It rings a bell, but I can't call it up.
    Mr. Jordan. Anyone, Mr. Rubin, do you know Mr. Gruber?
    Mr. Rubin. I know the name.
    Mr. Jordan. You know the name? Do you know what he does 
for--you know, what his occupation is?
    Mr. Hannah. I think he's an economist who was enlisted to 
help with the health care reform. Yes, sir. Yes.
    Mr. Jordan. Yes, the famous guy who was--and do you know 
what title he was given when he was helping with ObamaCare and 
health care reform? Do you know what he was titled, anyone 
remember? Architect of ObamaCare. And you know, that is one 
thing, you are the architect of ObamaCare and all, but he got a 
little notoriety in the press and actually had to come and sit 
right where you guys are sitting a few years ago. Any of you 
guys know why he was brought in front of the committee and had 
to sit here? Anyone want to take a guess? Mr. Rubin?
    Mr. Rubin. Well, basically he lied about the cost of 
ObamaCare.
    Mr. Jordan. Yes. He was deceptive, right? He said things 
like this. He talked about the stupidity of the American voter. 
He talked about--this is a direct quote. He was out bragging 
after this thing is passed, ``Lack of transparency is a 
political advantage.'' That is a nice way of saying if you 
deceive people, you might get your way, right? It might help 
your case.
    So here is Jonathan Gruber, architect of ObamaCare, talking 
about deception, things like if you like your plan, you can 
keep it, like your doctor, you can keep it, premiums are going 
to go down, Web site is going to work, Web site is safe, 
emergency room--everything turned out to be false.
    And now, we hear about another person in the Obama 
administration, Mr. Rhodes. He comes along and he is given the 
title, according to the piece in the New York Times, ``the 
single most influential voice shaping American foreign 
policy.'' Wow, things are starting to sound familiar. And he 
creates a false narrative as well, talks about this echo 
chamber and deceiving the press. And his derision for the press 
is kind of like Mr. Gruber's derision for the American voter 
because he says something like--what is the line he used 
there--``they literally know nothing'' was one of the lines 
that I think Mr. Rhodes used in his piece.
    Mr. Rubin, you talked about this false choice, I think, in 
your opening statement that Mr. Rhodes set up and used this 
echo chamber of folks who ``literally know nothing'' to further 
this message to the American people, this binary choice, either 
it is the deal or it is war. That is what he set up, right?
    Mr. Rubin. Yes.
    Mr. Jordan. And the thing that strikes me, Mr. Chairman--
and I won't take my full time here. I just wanted to make this 
point. So this isn't the first time this administration, on 
some big policy decision, has deceived the American people. But 
maybe more importantly, it is not in my judgment the first time 
Mr. Rhodes, on a big policy issue, on a big concern to the 
American people, has tried to deceive them.
    And, Mr. Rubin, you are getting ready to say something. Go 
ahead.
    Mr. Rubin. Well, I mean, the deception comes oftentimes in 
the way of cherry-picking. If we want to look at previous 
Iranian offers or acknowledgements of letters, for example, 
what's actually interesting is when Supreme Leader Khomeini, on 
the 30th anniversary of the seizure of the American embassy, a 
seizure for which no Iranian reformist or hardliner has ever 
apologized, mocked President Obama for the letters he was 
sending and said we are not going to talk to the Americans 
until they fundamentally change their position.
    And so one of the reasons why we need this transparency, 
this transparency about what you're saying, is sometime around 
2012 the Americans fundamentally changed their position but 
didn't come clean to the American people about it.
    Mr. Jordan. Yes, I thank you for that.
    Let me just finish up with this, then, just to, I think, 
make this point. Mr. Gruber deceives the American people on 
ObamaCare, along comes Mr. Rhodes on the Iranian deal, uses 
deception to create this false choice and help get this 
agreement passed. And as I said, this is not the first time Mr. 
Rhodes has done. It is not the first time the administration 
has done, more importantly, not the first time Mr. Rhodes has 
done it. I think he did it on the Benghazi issue. I think he 
did it there as well when he said in the now-famous talking 
points, which frankly became the catalyst for the formation--
the reason the House of Representatives and the Speaker formed 
the committee when he created this false choice between--it is 
not a failure of policy; it is rooted in a video, and straight 
from the talking points.
    And so, again, the pattern with the administration, what 
appears to be a pattern with Mr. Rhodes himself, and then when 
he is given the ask to come testify doesn't even have the 
courtesy to show up.
    So, Mr. Chairman, I yield back my 4 seconds.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Massachusetts, Mr. 
Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman, and thank you to the 
panel.
    I can't let this go. Earlier, Mr. Doran said that if only 
the President had been up front about withdrawing from the 
Middle East. I have to say that, you know, the President was 
clearly--during his campaign going back to 2007, 2008, I mean 
ad nauseam. At the time that the President took office, we had 
about 165,000 troops and 180,000 contractors in Iraq, and he 
went on and on about the fact that he was going to get those 
people out of there, that he was going to withdraw from the 
Middle East. I think he got elected based on that claim.
    But he was like Trump does with we are going to build the 
wall, we are going to make America great again, President 
Obama, during his campaign, he went on and on. He hammered away 
at that and said if I get elected, I am going to withdraw those 
troops. I am going to get--in the first 16 months--I went back 
and read it--he said in the first 16 months he is going to get 
all the combat brigades out of Iraq. So he was very much up 
front about that. He was perfectly clear on that.
    The other fiction here is that the American people were 
tricked by Ben Rhodes. And remember, we were the audience, us 
here. They were trying to get the bill, the Iran agreement 
through Congress. So we are the ones getting all the 
information. And I have to say I was never tricked by Ben 
Rhodes. And with all due respect to Ben Rhodes, in terms of the 
merits of that agreement, he was probably not as qualified as a 
lot of the other people that were coming to Congress and 
testifying before both, you know, Republican and Democratic 
caucuses.
    We had a list of experts. It is very lengthy, but I will 
just hit on a few. We had 78 nuclear nonproliferation experts, 
60 national security experts, 5 former ambassadors to Israel, 
29 Nobel Prize-winning scientists, 36 retired generals, over 
100 former U.S. ambassadors, and over 500 Iranian-Americans 
with experience both in the U.S. and Iran, 340 rabbis, 53 
Christian leaders. These scientists included physicists who 
helped design the first hydrogen bomb.
    So we had stone-cold experts on this. We were not listening 
to Ben Rhodes. And those are the people that--and I actually 
sat with one of the experts from the IAEA about what he thought 
after having been in Iran and at some of their--at ARAK, at 
Fordow, at Natanz and what they actually thought about the 
ability of this agreement to stop Iran from developing a 
nuclear weapon. So those are the people that we also listened 
to. It wasn't Ben Rhodes and, you know, some political spin.
    But I would say that if we are really trying to measure 
this agreement--and that seems what is going on here; we are 
all rehashing this agreement again--I think the best way would 
be to go to the IAEA because under the agreement they are the 
ones that we have put on the ground and asked them to do these 
inspections.
    And so I would just like to--for the record, I am going to 
ask have admitted the first two reports, January and February, 
by the IAEA, the international agency, verification for 
monitoring in the Islamic Republic of Iran in light of the 
United Nations Security Council Resolution 2231. So this is an 
inspection done by the IAEA because of the agreement.
    And some of the things--I will just tell you what they 
report. I will just give you the greatest hits. They determined 
that ARAK--they went into A-R-A-K--everybody things I'm saying 
Iraq--but ARAK heavy water research reactor and they determined 
that Iran was not pursuing the construction of the existing IR-
40 reactor.
    They had removed the existing calandria from that reactor, 
and they had rendered the calandria inoperable by filling it 
with concrete, which is part of the agreement. They had stored 
under continuous conditions--continuous agency monitoring all 
existing natural uranium pellets and fuel pursuant to the 
agreement. They modified the fuel process line at the fuel 
manufacturing plant at Isfahan so that it cannot be used for 
the fabrication of fuel. Iran was not accumulating enriched 
uranium through its enrichment research and development 
activities.
    Let's see. It goes on. I got 27 seconds left. A lot of good 
stuff in here. And these are people who have actually been in 
Iran doing the inspections. Iran at Fordow was not conducting 
any uranium enrichment, had removed all of its nuclear material 
at Fordow. This was all pursuant to the agreement.
    And I am getting to 8 seconds. Had completed the modalities 
and facility inspection arrangements to allow the agency to 
implement all the transparency measures provided in the 
agreement.
    So that is what the IAEA is exactly doing, and, you know, 
that is part of the agreement. That is what we put them for.
    The great advantage to us no matter what happens in the 
future is that up to the time that this agreement was signed we 
never had people on the ground in those facilities. We were 
always guessing about the level of progress they had made on 
their nuclear weapons program. Now, we have people on the 
ground.
    So even if they breach, we will have had the benefit of 
having people on the ground looking at those facilities, and 
for military purpose or diplomatic purposes, that is a good 
thing.
    I yield back. Thank you, Mr. Chairman.
    Chairman Chaffetz. I thank the gentleman, and we will enter 
those into the record unless there is an objection.
    Mr. Lynch. Thank you.
    Chairman Chaffetz. No objection, so ordered.
    Chairman Chaffetz. I now recognize the gentleman from South 
Carolina, Mr. Gowdy.
    Mr. Gowdy. Thank you, Mr. Chairman.
    I want to thank you for not only the panel that is before 
us but the panel you tried to have before us. Not only did Ben 
Rhodes not appear and cost us an opportunity to question Mr. 
Rhodes, it cost us the opportunity and the privilege to ask 
questions of our friend and colleague Tommy Cotton. Speaking of 
constitutional crisis, hauling a United States Senator before a 
committee of Congress would really have created a 
constitutional crisis, so good thing for us Tommy was willing 
to come on his own.
    And the background contrast would have been interesting to 
me. You know, the White House is very critical of Senator 
Cotton and has been for several months now. Senator Cotton, of 
course, when he was serving tours of duty in the United States 
Army in Afghanistan and Iraq, Ben Rhodes was navigating the 
mean streets of a creative writing curriculum. And I mean that 
literally. That is not figurative. He has a master's in 
creative writing. And if you are interested in writing haikus 
and sonnets and novellas, he is probably the right guy.
    On the other hand, if you are advising the leader of the 
free world on foreign policy matters, I don't know how a haiku 
helps. But I would have enjoyed the opportunity to ask Mr. 
Rhodes how his background prepared him to sell the Iranian 
deal, but yet Tommy Cotton's background did not prepare him to 
criticize the Iranian deal. That would have been an interesting 
dichotomy for me.
    But what I really wanted to do, Mr. Chairman, was ask Mr. 
Rhodes to help me, as Gruber did in the past, understand what 
he meant by certain things. Mr. Chairman, he said ``we created 
an echo chamber.'' Does the chairman know who ``we'' is?
    Chairman Chaffetz. I do not.
    Mr. Gowdy. Well, certainly he couldn't be referring to 
other presidential advisors because he then invoked executive 
privilege and he can't be talking about what other presidential 
advisors said. So it couldn't be that, could it? I don't ----
    Chairman Chaffetz. I do not know.
    Mr. Gowdy. Okay. Well, then he said, ``Reporters call us to 
explain to them what is happening in Moscow and Cairo.'' And I 
am curious which reporters that would be. Which ones call him 
to find out what is going on in Cairo? But we can't ask him 
because he is not here.
    And I would add he has plenty of time to sit down for what 
he had hoped to be a fluff piece in the New York Times. He has 
been on television plenty of times. He had plenty of time to 
draft memos for the President, but he doesn't have time to come 
before a committee of Congress.
    And then this is what really concerns me, Mr. Chairman. In 
talking about those reporters, he said ``they literally know 
nothing.'' How does someone literally know nothing? He said 
they were 27 years old, which suggests that they probably have 
a driver's license at that point. You have to know something to 
get a driver's license. If they are 27, they would be eligible 
to vote in the Democrat primary more than likely, so you have 
to know something. So when you say they literally know nothing, 
that struck me. I wanted to ask him about that.
    Also, I think that his appearance today, had he bothered to 
come, would have created an opportunity for a little bit of 
bipartisanship, which I know our friends on the other side of 
the aisle like from time to time. It said he expressed contempt 
for the editors and reporters at the New York Times, the 
Washington Post, and The New Yorker. That might have provided 
an opportunity for some bipartisanship. It would have given us 
an opportunity to share our own frustrations. But he didn't 
come.
    Mr. Chairman, you do a great job leading this committee. It 
is up to you whether or not you assert the people's right to 
question Ben Rhodes, but this selective use of executive 
privilege on one day but it is not executive privilege on the 
next, at some point Congress is going to have to stick up for 
itself. We are going to have to decide whether or not we do 
have a right to question people. And if you have time to make 
these comments to a reporter, you ought to be able to come 
explain yourself. And if you have time at the White House to 
send a bunch of mean tweets about a guy who served two tours, 
two combat tours in Tommy Cotton and he is willing to come, but 
the creative writing expert isn't willing to come, at some 
point this body is going to have to stick up for itself.
    With that, I would yield back to the chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Virginia, Mr. 
Connolly, for 5 minutes.
    Mr. Connolly. Well, thank you, Mr. Chairman.
    And lordy, lordy, the outrage of my friend from South 
Carolina does a heart good, does a heart good.
    From my point of view, this hearing is nothing but a 
smokescreen, yet another in a long chain of attempts by my 
friends on the other side of the aisle to deny what is 
manifestly true, that the Iran nuclear agreement is working. It 
is not a panacea for all Iranian behavior, though they would 
like you to believe that, just as disarmament agreements with 
the Soviet Union, our implacable foe during the cold war, were 
also not designed to address every aspect of Soviet behavior, 
would that they could, but they are not designed to be the be-
all and end-all to circumscribe an entire relationship. But 
they were designed and this was designed for a specific set of 
goals.
    And Lord Almighty, we had a hearing in the House Foreign 
Affairs Committee where again my friends on the other side of 
the aisle desperately wanted not to talk about compliance, but 
being the skunk at the picnic, I did. And let me see. In terms 
of compliance, we found that the agreement has reduced the 
number of centrifuges, as planned, from 19,000 to 6,104, that 
the fuel enrichment plants at Natanz and Fordow saw those 
centrifuges reduced. Iran is no longer enriching uranium above 
3.67 percent, verified by the IAEA, as my friend Mr. Lynch 
indicated, and has reduced its stockpile of enriched uranium, 
as required, to no more than 300 kilograms shipped out of the 
country, verified. Centrifuge production in uranium mines and 
mills under constant surveillance and verified, and of course 
the plutonium production capability eliminated.
    I asked point blank is there any evidence of cheating 
because that is all we heard. They were going to cheat, they 
couldn't be trusted, and this was nothing but enabling behavior 
to allow Iran to become a nuclear threshold state, and the 
answer was no, so far, no cheating.
    Now, my friend from South Carolina--we are friends; we are 
sometimes sparring partners--just is all exorcised about the 
fact that somebody, God knoweth why, would not accept a 
friendly invitation to come before this committee because we 
are a very hospitable environment to witnesses. And once in a 
while we deny them their Fifth Amendment rights, once in a 
while we badger them, once in a while we call them names, once 
in a while we censor them, a lot of times we interrupt them 
when we don't like their testimony, but they ought to come here 
nonetheless.
    You are lucky, Mr. Rubin. You are really lucky to be here 
today.
    Mr. Hannah, when you received an invitation from the Senate 
Intelligence Committee in 2006, did you accept that invitation?
    Mr. Hannah. I don't remember getting an invitation.
    Mr. Connolly. Well, actually, it is in the committee 
report. Did you not see that report?
    Mr. Hannah. I must ----
    Mr. Connolly. They published a report.
    Mr. Hannah.--not have.
    Mr. Connolly. What?
    Mr. Hannah. I must not have.
    Mr. Connolly. Well ----
    Mr. Hannah. I don't recall.
    Mr. Connolly.--let me help refresh your memory because they 
issued a final report, and they said that every request made to 
you for an interview was denied. And it concludes, ``These 
decisions inhibited the committee's ability to pursue 
legitimate lines of inquiry.'' Any reason why you would say no 
to the Senate Intelligence Committee when it was under 
Democratic--actually, it wasn't under Democratic control in 
2006, but you still said no. And that doesn't refresh your 
memory?
    Mr. Hannah. It doesn't refresh it, but I can tell you that 
there was obviously--especially in the office of the Vice 
President--counsel there was a very aggressive proponent of 
executive ----
    Mr. Connolly. Go ahead. Say it.
    Mr. Hannah. You say it for me.
    Mr. Connolly. Was that word coming out?
    Mr. Hannah. Executive privilege.
    Mr. Connolly. Privilege, there you go. So for a Republican 
White House, it is perfectly okay, and you had a very 
aggressive counsel saying you are not going, but here, with 
somebody who gives a profile for a magazine where he boasts 
about himself, we have got to haul him in chains before this 
committee because we are being denied access, and that is 
wrong. And you have agreed to testify about it, knowing that. 
So do you think Mr. Rhodes should be here in a way that you 
were not 10 years ago?
    Mr. Hannah. In our administration what I remember is that 
Dr. Rice, when she was in her capacity as NSC advisor, actually 
did testify. So I think there ----
    Mr. Connolly. I am talking about you, Mr. Hannah. You were 
named by the Senate Intelligence Committee by name and singled 
out for your refusal to make yourself available to that 
committee when it was doing its work. Was there less gravity to 
the issue at hand 10 years ago involving you than there is 
today involving Mr. Rhodes?
    Mr. Hannah. Issues were very grave in both cases, I think. 
I think Mr. Rhodes actually is a more influential player than I 
am ----
    Mr. Connolly. All right.
    Mr. Hannah.--and he's been willing to talk about all of 
these issues ----
    Mr. Connolly. Well ----
    Mr. Hannah.--so openly and with such contempt for so many 
people ----
    Mr. Connolly. Well ----
    Mr. Hannah.--that ----
    Mr. Connolly.--we are glad to have you here ----
    Mr. Hannah.--I think he's in a different ----
    Mr. Connolly.--today talking as well.
    Mr. Hannah.--situation.
    Mr. Connolly. I am sure my colleagues 10 years ago ----
    Mr. Hice. [Presiding] The gentleman's time is expired.
    Mr. Connolly.--would have enjoyed having you.
    One good aggressive White House counsel deserves another, 
Mr. Chairman. Thank you.
    Mr. Hice. The gentleman's time is expired.
    The chair recognizes the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Well, thank you, Mr. Chairman.
    I would think that Ben Rhodes would be falling all over 
himself to come here. I mean, he seems to think he is so much 
smarter than everybody. Well, educate everybody. Tell us why 
those of us who oppose this were wrong. Show us what we are 
missing. Educate the American people. I think it would have 
been a great opportunity for him if, in, fact he is as smart 
and worldly as he says.
    And I think part of this, yes, there is deception involved, 
and any time a major policy is sold to the Congress or the 
public, that is a major, major thing. Rhodes himself said that 
the Iran deal was going to be the ObamaCare of the second term.
    And of course with ObamaCare in the first term, the 
President famously said over and over again, if you like your 
plan, you can keep it, if you like your plan, you can keep it. 
Not only was that not true, the administration knew at the time 
it would not be true, and yet they did it in order to engineer 
passage of ObamaCare.
    And then with this deal, the President was in the 
presidential debate in 2012. He said the deal is very simple 
that I will accept. They end their nuclear program. It is 
pretty straightforward, he says. And of course what we see now 
is Iran retains really a major, major nuclear program. I 
believe they are on a path to a bomb at worst once the time the 
8, the 15 years goes up.
    So there is a lot, I think, that is important about that, 
and it important to talk about it. But I also think that some 
of what we are talking about with Rhodes, for example, the idea 
that, well, Rouhani's election really changes everything 
because this guy is a moderate, never mind that he would never 
have been allowed to run by the Ayatollah if he truly wanted to 
change the nature of the regime. So you have a regime that is 
the world's leading state sponsor of terrorism. You have a 
regime which, you know, people fail to mention that they were 
responsible for as many as 1,500 American deaths in Iraq. They 
were leading the Qods Force, Soleimani, they were funding these 
massive EFP bombs, which took out at least hundreds of our 
soldiers and probably as many as 1,500.
    So that is the nature of the regime. And the notion that 
was propagated, and Rhodes is honest about it, he says, look, 
this is an opening, it is a new--we have got to take this 
opportunity. It is a once-in-a-generation opportunity. Well, it 
turns out they never believed that. They knew that this 
regime--in fact, they were negotiating with the regime before 
Rouhani had ever been elected, and so all that was kind of a 
ruse to camouflage the basic policy.
    And I think Mr. Doran hit on it. This is a policy that 
understands the radial nature of the Iranian regime, 
understands the hostile nature of the Iranian regime, and is 
doing a deal with those hardliners to effectively solidify 
those hardliners. And they think that that is the way to have a 
more peaceful world.
    And so the deception is important just for itself, but what 
it really masked is when we were going through all this--this 
is the biggest thing we have done this Congress--I thought that 
John Kerry and the President and these people were very naive 
about how they conceded the Iranian regime. It turns out they 
really weren't that naive. They knew exactly what we knew and 
they still wanted to go ahead with it. And so that is why I 
think it is very, very troubling.
    And then we are seeing that now play out with really 
gratuitous concessions such as giving Iran indirect access to 
the American dollar. That wasn't even called for by the Iran 
deal, and yet that is something that the administration is 
doing.
    And so I think that this is important. There are few--I 
don't think we have done an issue this important in the 
Congress in years and years. And so the idea that you are not 
up front with the American people is very important, but I 
think what this should allow us to do, I would like to tease 
out the implications now of this policy with somebody like Mr. 
Rhodes.
    So, Mr. Doran, what is your view? I mean, it seems like 
Rouhani as a moderate, they admit it is a ruse, so they knew 
very well the nature of the regime, and they think that 
effectively us unilaterally stepping back from having a 
confrontational posture with Iran is going to be better for the 
world security?
    Mr. Doran. I think that's right. I think the President has 
a vision of the Middle East as a kind of roundtable now. The 
security architecture is a kind of roundtable and we have all 
the stakeholders around the roundtable, and the Iranians are 
stakeholders. And the assumption is that if we start treating 
them with respect and respecting their interests that they'll 
come toward us and that they--the key assumption--I think the 
key false assumption here is that they share the same interests 
that we do, the same core interests, this defeating ISIS, 
stabilizing Iraq, and so on.
    I think particularly relevant are the views of Fred Hof at 
the Atlantic Council, who was President Obama's point man on 
Syria from 2009 to 2012. He's somebody who understands the--you 
know, there's nobody that's been closer to the Obama 
administration's policies on Syria than Fred Hof. And he has 
now come around to the view that President Obama has in effect 
recognized Syria as an Iranian sphere of interest and did so in 
order to reach the agreement with them.
    Mr. DeSantis. Well, I appreciate it. I think the upshot of 
all this, the nuclear obviously very significant, but even 
beyond that, Iran is really emerging as the dominant power in 
the region. How you can see that is good for our security is 
beyond me. And I yield back.
    Chairman Chaffetz. I thank the gentleman.
    I now recognize the gentleman from Pennsylvania, Mr. 
Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Mr. Chairman, at this time I would like to associate 
myself with the words of Representative Lynch of Massachusetts 
and also Representative Maloney of New York. I don't think it 
is possible to overstate the amount of study that went into the 
Iran deal on both sides of the aisle, and it is with great 
regret that I see it has turned into a political football the 
way it has.
    Mr. Hannah, let me get this straight. You drew up the false 
talking points for Colin Powell when he spoke in front of the 
U.N., and you wrote in the talking points that there were 
weapons of mass destruction in Iraq and that was what ended up 
in his speech. And that you are here today to question someone 
else's credibility and somebody else's professionalism. Am I 
getting that straight?
    Mr. Hannah. Not exactly. I'm not sure I'm questioning his 
professionalism. I'm questioning the tactics that he used. We 
based our intelligence on the intelligence that was there. It 
was wrong. That was a mistake. It wasn't any kind of purposeful 
desire to deceive or not give the American people what we ----
    Mr. Cartwright. And you told us earlier in your testimony 
today that you drew up that speech not knowing if it was true, 
knowing that it would be vetted by the intelligence community, 
drawing it up as a piece of salesmanship to see if anything was 
true, and if it was, it would stick. Your words were quite 
clear on that.
    And one of the parts of the salesmanship was that this idea 
that--was that the Bush administration cooked up this idea that 
there was yellowcake uranium coming from the African nation of 
Niger going to Saddam Hussein, and it was the American 
Ambassador Joe Wilson who gave the lie to that fiction. He said 
it was a bunch of nonsense. In fact, he wrote an op-ed in the 
New York Times in 2003 in July debunking the claim that 
yellowcake uranium was going to Saddam Hussein from Niger.
    But, Mr. Hannah, you were one of Dick Cheney's top national 
security advisors, you worked with Cheney, you worked with 
Scooter Libby before he was convicted. Surely you discussed 
Ambassador Wilson's op-ed with him, with Vice President Cheney, 
especially since it was contradicting one of your key talking 
points in selling the war in Iraq. Did you talk about 
Ambassador Wilson's op-ed in the New York Times with Vice 
President Cheney?
    Mr. Hannah. I did not talk to the Vice President, but we 
did talk about it within the office and within the ----
    Mr. Cartwright. Did you talk to Scooter Libby about it?
    Mr. Hannah. I'm almost sure I did, yes.
    Mr. Cartwright. All right. Well, Ambassador Wilson wrote, 
``It did not take long to conclude that it was highly doubtful 
that any such transaction had ever taken place.'' He directly 
contradicted information that you put out publicly. In 
response, the Bush administration retaliated against him by 
publicly outing his wife Valerie Plame, who was a CIA operative 
at the time.
    Mr. Hannah, my question for you is what was your role in 
outing Valerie Plame as a CIA operative?
    Mr. Hannah. I had no role in outing Valerie Plame as a CIA 
operative.
    Mr. Cartwright. Mr. Hannah, special counsel was appointed 
to investigate the criminal leak of classified information. It 
was Patrick Fitzgerald, special counsel. He concluded that 
there was--and I am quoting here--``concerted action by 
multiple people in the White House to discredit, punish, or 
seek revenge against Ambassador Wilson.'' Do you dispute those 
findings?
    Mr. Hannah. I haven't looked at them. I--yes, I dispute the 
way that the name of Valerie Plame reached the press. It was by 
a person who seemed to have no desire--was in the State 
Department. Deputy Secretary Armitage happened to mention her 
in a conversation with a reporter.
    Mr. Cartwright. Mr. Hannah, the Bush administration smeared 
Ambassador Wilson and his wife, ruined her career, sacrificed a 
national security asset in the CIA all because Ambassador 
Wilson had the temerity to debunk your false claims, and he 
told the truth. Your boss and Dick Cheney's chief of staff 
Scooter Libby was convicted but then President Bush commuted 
his prison time. That is correct, isn't it?
    Mr. Hannah. I don't think those are the exact--he was never 
charged with releasing the name of a covert CIA operative.
    Mr. Cartwright. The second voice and that you talked about 
outing Valerie Plame, that was Karl Rove, wasn't it?
    Mr. Hannah. I have no idea. I know Karl's name was in there 
but I had no dealings with Karl.
    Mr. Cartwright. Mr. Chairman, I yield back.
    Chairman Chaffetz. I now recognize the gentleman from North 
Carolina, Mr. Meadows, for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman.
    Mr. Rubin, let me come to you because as these decisions 
continue to get made with regards to the validity of the Iran 
deal as we would call it, decisions by Members of Congress 
hinge on very small sometimes often minute pieces of 
information where they can justify going one way or another. Do 
you believe that some of the statements by Mr. Rhodes was a 
factor at all in some of the Members of Congress casting their 
vote one way or another?
    Mr. Rubin. Yes, and I can give you examples if you would 
like.
    Mr. Meadows. Please.
    Mr. Rubin. Well, first of all, when it comes to 
verification, according to U.S. law, incumbent with the Corker-
Cardin compromise, all agreements are supposed to be presented 
to Congress. Now, it emerges that there were secret side 
agreements with the IAEA. One of these secret side agreements 
that comes into play with regard to verification is that the 
State Department decreed that the IAEA would not need to report 
to the level it had reported under sanctions, especially with 
regard to the possible military dimensions. So to say that the 
IAEA said that verification--that Iran is complying with the 
deal, that's like bragging that someone is the valedictorian of 
the summer school class.
    Mr. Meadows. So ----
    Mr. Rubin. So it becomes a major problem. It lets them off 
the hook, and we only found out about that afterwards because 
the White House kept it secret.
    Mr. Meadows. Well, we have had sworn testimony both in a 
number of House committees and Senate committees where the 
sworn testimony by administration officials were that there are 
no and were no secret side agreements. Would you say that that 
is a credible argument under sworn testimony to make?
    Mr. Rubin. They are lying to Congress.
    Mr. Meadows. All right. So that is a pretty bold statement, 
Mr. Rubin, that they are lying to Congress. So if we go back 
and look at the tapes when they say that there was no side 
agreements in sworn testimony, do you think it is incumbent 
upon this committee to hold those particular individuals who 
gave sworn testimony in contempt of Congress?
    Mr. Rubin. Yes.
    Mr. Meadows. Thank you, Mr. Rubin.
    And let me go on a little bit further because the troubling 
aspect of this is for somehow members on the other side of the 
aisle to suggest that there is wrongdoing in previous 
administrations that would justify wrongdoing in a current 
administration.
    Is it your opinion, Mr. Rubin, that regardless of who the 
administration might be, whether it be Republican or Democrat, 
that it is incumbent upon them to be honest and straightforward 
with Congress when they are negotiating something of this type 
of magnitude?
    Mr. Rubin. Yes. National security should not be a political 
football.
    Mr. Meadows. So is it your sworn testimony here today that 
because of the talking points of Mr. Rhodes and the inaccuracy 
or, as you would characterize them, lying that took place, that 
the whole debate that transpired within Congress was based on 
faulty assumptions that had no relevance or relationship to 
truth?
    Mr. Rubin. It was almost as if instead of looking at the 
whole chessboard the White House was just directing Congress to 
look at four pieces.
    Mr. Meadows. So if we were only looking at four pieces and 
something that is so critical to national security and to the 
security of our all Israel, do you think that it was 
disingenuous to suggest that some of the talking points that 
were coming out of the Israeli Government were indeed 
characterized as being dishonest and not truthful--do you think 
an apology is owed by this administration to that government?
    Mr. Rubin. You know, this administration has a sorry record 
at this point of coddling adversaries and throwing allies under 
the bus. Perhaps apologies are due when domestic Washington 
politics got in the way of serious foreign-policy discourse.
    Mr. Meadows. I thank you, Mr. Rubin, and, Mr. Chairman, I 
yield back.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Vermont, Mr. Welch, 
for 5 minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    At the heart of this is a question whether this was--the 
one faced by the President, is an Iran without nuclear weapons 
better for our national security, for the Middle East and for 
the world than an Iran with nuclear weapons? That was the 
question.
    And the engagement of Mr. Rhodes was one significant person 
among hundreds, and along with our best allies, France, 
Germany, England, and also our sometimes frenemies China and 
Russia. And the collective decision of those countries and us 
was that the Iran nuclear deal was in our collective interest.
    Now, there was fierce disagreement about that among the 
witnesses and among many of my colleagues here in Congress, but 
this was a long and complex negotiation that was ultimately 
ratified by our strongest allies. And there was a judgment that 
the Commander in Chief had to make as to whether or not this 
agreement was in the national security interest of this 
country.
    I agreed with him. I worked closely with Mr. Rhodes and 
found him to be an exceptional public servant, knowledgeable, 
and despite what you are saying, candid and direct.
    Let me just ask a couple questions here because the 
decision the President made was in contrast to decisions that a 
previous President made. Do each of you believe that the 
American people got the right information that there were 
weapons of mass destruction in Iraq, each of you, Iraq? Thank 
you.
    Mr. Hannah. No, it's shown that it was false.
    Mr. Welch. Right.
    Mr. Doran. No.
    Mr. Rubin. No, the American people got what the 
intelligence community believed.
    Mr. Welch. Who has supervisory authority over the 
intelligence community, sir, Mr. Rubin?
    Mr. Rubin. Congress.
    Mr. Welch. The President has no role?
    Mr. Rubin. The buck stops with the President, but if we're 
talking about oversight ----
    Mr. Welch. You ----
    Mr. Rubin.--that's what separation of powers is about.
    Mr. Welch. All right. So you are saying--and by the way, I 
will go along with this. Congress blew it on the Iraq 
resolution. But are you suggesting to me that there is not 
ultimate responsibility for making the decision in evaluating 
the recommendations of the intelligence community on the matter 
of sending our troops to war, of spending trillions of dollars, 
throwing the Mideast up into upheaval, and he is not the one 
who ultimately bears the responsibility for that decision?
    Mr. Rubin. The President made the decision to go to war. 
I'm not willing to put the broad instability in the Middle East 
on his shoulders.
    Mr. Welch. I was ----
    Mr. Rubin. The Middle East needs to be accountable ----
    Mr. Welch. All right.
    Mr. Rubin.--for the Middle East.
    Mr. Welch. Second thing. So we went into this war in Iraq, 
we toppled Saddam Hussein, we were promised we would make money 
on the war. That was testimony from some of the President's 
advisors. It will be over in 60 days and the troops would be 
greeted with flowers in the street. It didn't work out that 
way.
    Afghanistan, the longest war in the history of this 
country, we still have troops there. The place is a mess, 
nation-building, an arrogant policy embraced by a prior 
administration, didn't work out so great. Any of you think that 
Afghanistan is on a solid footing for democracy at the moment, 
just a yes or no if I can get that from each of you?
    Mr. Rubin. No.
    Mr. Welch. Sir?
    Mr. Doran. No.
    Mr. Hannah. No.
    Mr. Welch. Sir?
    Mr. Hannah. No.
    Mr. Welch. All right. So we have to President who says, you 
know what, this war approach isn't so great, and he had to make 
a decision and he said, look, let's try negotiations. I 
supported sanctions. Every tough sanction that we were able to 
impose on Iran I supported, as did virtually all of the 
Democrats and Republicans. You know what? The sanctions work. 
It brought Iran to the table.
    In this decision you are focusing on this fine public 
servant, Ben Rhodes, because of a newspaper article is 
something that then disregards the fact that we blew it in 
Iraq, we are blowing it in Afghanistan, and the President 
decided to pursue negotiations, got an agreement, and had the 
full support of those allies, the P5+1.
    So if there are implementation issues, let's get on it. I 
am all for that. But to sit here and to suggest with this 
history of failure when war is the option that we should have 
done that, and that is essentially what the alternative was. 
That is essentially what the alternative was. I don't buy it, 
and I don't believe the American people buy it, and we are 
picking and choosing trying to come up with some little detail 
that somebody somewhere said to suggest that we ought to 
unravel the whole thing. I disagree.
    I yield back.
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentleman from North Carolina, Mr. 
Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    On September 11, 2015, CNN stated, ``The effort was one of 
the most aggressive lobbying drives ever to take shape between 
congressional Democrat leaders and the Obama White House on 
this bill H.R. 3461.'' Now, among the people who voted no were 
25 Democrats. You heard today Mrs. Carolyn Maloney acknowledged 
that. She wasn't the only one on this particular committee. 
There were others.
    My question is what did those 25 Members know that either 
the other Members did not know or sadly in some cases chose to 
ignore or even lobbied? In regards to Mr. Shapiro, we have 
heard a lot of talk today. You know, I am sure you guys may be 
dads, and it is always interesting when you confront one of 
your children and ask them if they did something wrong. The 
telltale sign or the giveaway is when they immediately 
acknowledged that another brother or sister did something 
wrong. That is what the smokescreen has been here today. You 
know, so much of the smokescreen has been about Mr. Hannah. 
Nobody wants to talk about Mr. Shapiro.
    But let me talk about the difference if I could just for a 
second. Here is a big difference between Mr. Hannah and Mr. 
Shapiro. Mr. Shapiro enjoyed running to the press sharing false 
information. Mr. Shapiro became the poster boy, almost the 
spokesperson of a flawed and horrific Iranian deal. The words 
``anytime, anywhere'' continue to ring true as far as even to 
this day.
    So my question, gentlemen, if you would please, whether 
intentional or not, did Mr. Shapiro in your opinion mislead the 
American public with this ``anytime, anywhere,'' multiple 
times, Mr. Rubin?
    Mr. Rubin. Mr. Rhodes most certainly did. Now, the key here 
is that by lying about whether Rouhani was a moderate, he 
provided cover for the fact that the administration left Iran 
with 5,000 P-1 centrifuges and that the administration never 
had any hope, once this agreement expired, that the resulting 
Iran with an industrial-scale nuclear program would be any 
different. And I should note, sir, that that's the number of 
centrifuges which Pakistan built not a bomb but an arsenal.
    Mr. Walker. Thank you, Mr. Rubin. And maybe one correction. 
I said Mr. Shapiro. That would be Ben Rhodes.
    Mr. Doran?
    Mr. Doran. Yes, I think he deceived the American people.
    Mr. Walker. Mr. Hannah?
    Mr. Hannah. If the article is accurate, yes, I think that 
he engaged in certain deceptions about what the administration 
was really up to and what we were facing in Iran.
    Mr. Walker. The Iran agreement lifts restrictions on arms 
sales to Iran after 5 years and after 8 removes the ban on Iran 
developing ballistic missiles potentially capable of reaching 
the United States. Question, Mr. Rubin. Can you elaborate on 
the threat the ballistic missile capability poses to the United 
States?
    Mr. Rubin. One of the problems I have with the reporting in 
the United States is people tend to pat themselves on the back 
every time there's a failed missile test. The fact of the 
matter is you learn a lot from a failed missile test and Iran 
has made clear in its public statements that it intends to 
continue with its ballistic missiles until such a time as they 
can strike anywhere, anytime.
    I should also say a major flaw in the agreement is it bans 
the arms sales for 5 years for offensive weapons but never 
defines what offensive is, which is why Iran is on a shopping 
spree in Russia and China right now.
    Mr. Walker. Thank you, Mr. Rubin.
    Mr. Doran?
    Mr. Doran. The--one of the things that the agreement did 
basically was remove ballistic missiles--effectively remove the 
ballistic missiles from the kind of sanctions that they were 
under by the change in language that the chairman mentioned.
    If the administration had told Congress before the deal 
that the deal was going to result in an Iranian-Russian 
military alliance which was going to intervene in Syria and 
result in a rise of Iranian power around the region, I think we 
would've had a very different debate.
    Mr. Walker. Mr. Hannah, would you like to expound?
    Mr. Hannah. I would say the only thing about--on the 
ballistic missile I think everything my colleagues have said is 
right. It essentially--Iran is determined to do this, and it's 
important to note that the only really rational military use of 
these missiles is if you can put a nuclear warhead on them. 
That makes them really militarily useful.
    And the fact that Iran is so dedicated to expanding and 
building out this program, including eventually an ICBM, not 
only being able to hit all of their neighbors, including 
Israel, but eventually at some point in time being able to hit 
the United States, the fact they've had such deep cooperation 
with North Korea over the years that already has an ICBM 
capable of ranging the United States makes you believe that 
this nuclear deal is only kicking the can down the road, and 
they fully intend at a point in time when they're stronger and 
more able to stand up to sanctions and to American power to go 
ahead and, once restraints are limited, to go for a nuclear 
weapon.
    Mr. Walker. Thank you, panel. With that, I yield back, Mr. 
Chairman.
    Chairman Chaffetz. I thank the gentleman.
    I will now recognize the gentleman from Missouri, Mr. Clay, 
for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman, and thank the witnesses 
for being here today.
    Mr. Hannah, you worked for Dick Cheney. You actively 
participated in the preparation of Secretary Powell's infamous 
speech to the United Nations about Iraq's weapons of mass 
destruction. I find it incredibly ironic that the chairman 
invited you here to testify about false White House narratives, 
given your involvement in that debacle.
    One of the primary claims for war was that Saddam Hussein 
had so-called mobile labs that were roaming around inside Iraq 
manufacturing biological weapons. Secretary Powell showed a 
cartoon drawing of one of these mobile labs during his speech 
to the United Nations. We have a slide of it. Could someone 
please put it up on the screen?
    [Slide.]
    Mr. Clay. Oh, there it is. Those are the mobile labs. Mr. 
Hannah, who drew this picture?
    Mr. Hannah. I do not know. I assume whoever in the 
intelligence community was responsible for the graphics for his 
presentation.
    Mr. Clay. And you used this is part of your preparation--as 
part of you preparing Mr. Powell for that speech?
    Mr. Hannah. My guess is that, yes, the issue of the 
biological labs would have been in whatever I provided ----
    Mr. Clay. Yes.
    Mr. Hannah.--in the draft.
    Mr. Clay. Okay. Let me read Secretary Powell, who stated 
during his speech to the United Nations, ``one of the most 
worrisome things that emerges from the thick intelligence file 
we have on Iraq's biological weapons is the existence of mobile 
production facilities used to make biological agents.'' What 
was the source of that claim, Mr. Hannah?
    Mr. Hannah. I believe the primary source was--it was a 
defector and it was human intelligence. I think it was a 
defector.
    Mr. Clay. Wasn't it a source known as ``Curveball''?
    Mr. Hannah. I believe so, yes.
    Mr. Clay. Okay. Secretary Powell highlighted this so-called 
eyewitness account in his United Nations speech. He warned that 
Iraq could use these mobile labs to produce enough biological 
weapons ``in a single month to kill thousands upon thousands of 
people.'' Isn't that right?
    Mr. Hannah. Is that what he said?
    Mr. Clay. Yes.
    Mr. Hannah. Yes, if you're reading that accurately, yes.
    Mr. Clay. But we now know that that claim was false. In 
fact, Secretary Powell said his claim has ``totally blown up in 
our faces.'' Do you agree with Secretary Powell?
    Mr. Hannah. I agree that the claim was false, yes.
    Mr. Clay. Is it true that no U.S. officials ever personally 
interviewed Curveball before we used--they used that 
information?
    Mr. Hannah. I don't know that firsthand, but I think the 
CIA has said that this was controlled by a German intelligence 
service.
    Mr. Clay. Yes. And it is true that the Germans who were 
speaking with Curveball could not believe you were using this 
information publicly because he was so unreliable. Isn't that 
true?
    Mr. Hannah. That's the claim. That was never relayed to me 
by the CIA. They were talking to the CIA, I think, at that 
time. If they said that, it wasn't a claim that was relayed to 
me.
    Mr. Clay. Okay. Well, I have an article from November 20, 
2005, from the L.A. Times, and it says this: ``The senior BND 
officer who supervised Curveball's case said he was aghast when 
he watched Powell misstate Curveball's claims as a 
justification for war. 'We were shocked,' the official said. 
'Mein Gott, we had always told them it was not proven.''' Mr. 
Hannah, is that true?
    Mr. Hannah. Is it--well, I don't have any ----
    Mr. Clay. The Germans warned from the beginning that this 
information was not verified.
    Mr. Hannah. That's what historically it is reported. 
Between their communications, between their intelligence and 
the CIA, that's what the Germans have claimed.
    Mr. Clay. But it got into the Secretary's speech, into 
Secretary Powell's speech, you know? Your narrative was at best 
misleading and at worst blatantly false. As a result, thousands 
of people were killed and injured when this nation went to war 
based on those false claims. You know, do you have any remorse 
about that?
    Mr. Hannah. I have great, deep remorse about any American 
soldier that's lost, especially if it's based on information 
that we put out in good faith, that our intelligence 
communities and other intelligence communities around the world 
thought was true and thought we were acting in the best 
interest of the United States. So I do have great remorse about 
what ----
    Mr. Clay. Right, but it wasn't vetted. The information ----
    Chairman Chaffetz. The ----
    Mr. Clay.--you just threw it at the Secretary ----
    Mr. Hannah. No, that's not ----
    Mr. Clay.--and had ----
    Mr. Hannah. That's not true at all, Congressman. It's not 
accurate.
    Mr. Clay. It is true.
    Chairman Chaffetz. The gentleman's ----
    Mr. Clay. It is absolutely ----
    Chairman Chaffetz. The gentleman's time is expired.
    Mr. Clay.--a grave mistake.
    Chairman Chaffetz. The gentleman's time ----
    Mr. Clay. I guess I yield back.
    Chairman Chaffetz. The gentleman yields back. And I would 
also duly note that Mr. Hannah worked for President Clinton, 
served as a senior policy advisor to Secretary of State Warren 
Christopher as well.
    So I will now recognize the gentleman from Georgia, Mr. 
Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    There seems to be a great deal of confusion as to the 
purpose of this hearing, which is supposed to be about this 
current administration White House narrative on the Iran 
nuclear deal. In Mr. Samuels' article, Leon Panetta stated that 
he, during his tenure as director of the CIA and Secretary of 
Defense, never saw the letters that Obama covertly sent to 
Iran's supreme leader in 2009 and 2012.
    He goes on to say that he would like to believe that Tom 
Donilon, then-national security advisor; and Hillary Clinton, 
then-Secretary of State, had a chance to work on the offer they 
presented. Mr. Doran, let me begin with you. Is there any 
information confirming that Mr. Donilon or Secretary Clinton 
worked on those letters?
    Mr. Doran. None that I know of.
    Mr. Hice. Okay. Mr. Rubin, is circumventing--let's use that 
word--of relevant department and agency heads in major foreign-
policy decisions typical behavior for members of the National 
Security Council and other White House staffers?
    Mr. Rubin. It has become a problem that has grown with time 
dating back administrations.
    Mr. Hice. So this is common practice these days?
    Mr. Rubin. This has become all too common, yes.
    Mr. Hice. Mr. Hannah?
    Mr. Hannah. I do think something has changed in that 
regard. Just the fact that we have a deputy national security 
advisor for strategic communications whose job is both to help 
develop policy, it seems, as closest foreign-policy aide to the 
President and the guy who is selling it, I think, is worrisome.
    I have got to say that in our administration you can make--
maybe fault us for a lot, but the fact is that people like Karl 
Rove, who was in charge of our communications, never sat in 
National Security Council meetings. There was a pretty strict 
divide between those two.
    Mr. Hice. Mr. Rubin, back to you. How much undue influence 
do you believe that these staffers have over national security 
policy?
    Mr. Rubin. As Mr. Hannah said, I believe that this 
administration has blurred a line that has existed over 
previous administrations, both Democratic and Republican.
    Mr. Hice. Okay. Mr. Hannah, you mentioned in your testimony 
earlier that with one bold move the administration effectively 
made a radical shift in American foreign policy. Is that a 
correct assessment of your opinion?
    Mr. Hannah. Yes, it certainly is. Yes.
    Mr. Hice. Okay. The question then comes down to who 
ultimately is responsible for that shift in foreign policy. 
Would you say it is Ben Rhodes, other staffers, or the 
President himself?
    Mr. Hannah. No, the policy toward Iran and toward the 
general retrenchment for the Middle East seems clearly to be 
President Obama's. He's in charge of that policy.
    Mr. Hice. Okay. And yet there is some influencers appears 
to be in his life. Ben Rhodes, as referred to earlier, is 
recognized as the single most influential voice on foreign 
policy to the President. So what kind of role did he have in 
shaping this radical shift?
    Mr. Hannah. I don't know. And I do want to add the caveat 
that this is the shift presented by the policy, although I 
think it is consistent, as Mr. Doran has said, with the general 
thrust of the administration's policy toward Iran and toward 
the Middle East since 2008. I just don't think it's been 
presented that way. They want to remove and distance themselves 
from our closest allies in the Middle East, including Israel, 
and what they tell our allies and they tell the American people 
is that their relationship is stronger than ever and they will 
forever have Israel's back.
    And that's justified by what's presented in the article. 
And it's that contradiction that worries me so much about what 
is really going on. Are we having a full and open debate about 
what we want to do? You've got to hand it to Mr. Trump. At 
least he says I want to get out of this place. It's too 
expensive, it's too costly, our allies are too much trouble. I 
want to distance ourselves from it.
    Mr. Hice. So let me clarify what you are saying because it 
is troubling to me as well, extremely troubling that the 
American people, that Congress, that our allies, when there is 
such a radical shift of the magnitude of this type of foreign 
policy that the American people, Congress, and our allies are 
not aware of it. So the only way--do you believe the American 
people and Congress would support a shift that major had they 
known about it?
    Mr. Hannah. No. I think as Mr. Doran said--and Secretary 
Panetta is in fact quoted in the piece as saying had they done 
it, they'd have gotten the blank kicked out of them.
    Mr. Hice. Absolutely. So the only way to pull this over the 
American people's eyes and Congress and our allies is by 
spinning the truth and maybe people get on board something that 
is not indeed reality or truth.
    Mr. Hannah. That is the extremely strong suggestion of the 
article that you had to spin it ----
    Mr. Hice. But yes, no, then right down the line, would you 
agree with that assessment?
    Mr. Rubin. Yes.
    Mr. Hice. I will yield.
    Mr. Doran. Yes.
    Mr. Hice. Mr. Hannah?
    Mr. Hannah. Yes, sir.
    Mr. Hice. All right. Thank you, Mr. Chairman. I yield.
    Chairman Chaffetz. The gentleman yields back.
    I now recognize the gentleman from California, Mr. 
DeSaulnier, for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Mr. Rubin, first, I assume you are vigorously opposed to 
the Iran agreement?
    Mr. Rubin. I'm opposed to it, yes.
    Mr. DeSaulnier. And you have been all along?
    Mr. Rubin. I thought that there could be a much stronger 
agreement and we could have made much better use of leverage to 
get a much more favorable agreement.
    Mr. DeSaulnier. But you are opposed.
    Mr. Doran?
    Mr. Doran. Yes.
    Mr. Hannah. Yes, I'd associate myself with Michael's ----
    Mr. DeSaulnier. So just to be clear, for instance, former 
Secretary of State Colin Powell, he has called the verification 
regime ``vigorous in the agreement. These are remarkable 
changes.'' And so we have stopped this highway race that they 
were going down, and I think that is very, very important. 
Would any of you agree with Secretary Powell's quote in his 
view of this agreement?
    Mr. Hannah. It reminds me of the statements in support of 
the agreed framework with North Korea, which we now know did 
not merit those endorsements.
    Mr. DeSaulnier. So you wouldn't agree with it?
    Mr. Hannah. No, I would not.
    Mr. DeSaulnier. Brent Scowcroft, former advisor to 
Presidents Ford and George H.W. Bush, ``To turn our back on 
this accomplishment would be an abdication of the United 
States' unique role and responsibility incurring justified 
dismay among our allies and friends.'' You would disagree with 
that quote as well, Mr. Doran? Do you have any comment?
    Mr. Doran. Yes, I disagree with it.
    Mr. DeSaulnier. Mr. Hannah, it strikes me that in your 
response to some of my colleagues on this side of the aisle's 
comments about your role with Vice President Cheney and the 
agreement or the decision to invade Iraq, it was a mistake and 
you apologized for that in your own way, but we should just 
move on from that. Is that a misrepresentation of how you view 
your actions?
    Mr. Hannah. It's somewhat more complicated than that but 
too long to explain.
    Mr. DeSaulnier. Of course.
    Mr. Hannah. But, yes, that--if the case depended on a 
weapons of mass destruction in Iraq, that was false, and the 
American people didn't understand the grounds on which we were 
going to war, to take out a guy who was a horrible dictator and 
a major strategic threat to American interests, that the 
American Congress in 1998 passed a law almost unanimously 
saying--the Iraq Liberation Act saying we've got to do 
something to get rid of this guy, didn't say war necessarily 
but it says we've got a big trouble with Iraq, we need to do 
something about it.
    Mr. DeSaulnier. But it was based, wouldn't you say, on the 
assumption that there were weapons of mass destruction in these 
mobile biological labs?
    Mr. Hannah. No, in 1998 it was the Clinton administration. 
You had Secretary of Defense Cohen standing up and holding up a 
bag of sugar and saying if Saddam had this much biological 
weapons, he would kill thousands upon thousands of people that 
he represents ----
    Mr. DeSaulnier. Right.
    Mr. Hannah.--a major threat to the United States.
    Mr. DeSaulnier. But that wasn't it ----
    Mr. Hannah. That was the basis ----
    Mr. DeSaulnier. But that wasn't the part of the discussion 
we were having as a nation in order to commit ourselves to send 
young American to war in Iraq. It was the weapons of mass 
destruction, which you admit now was a mistake.
    Mr. Hannah. Yes, that intelligence clearly was false. A 
bipartisan commission ----
    Mr. DeSaulnier. Right.
    Mr. Hannah.--looked at it and said most of that was wrong.
    Mr. DeSaulnier. So, on balance, comparing these two 
processes, whether you think it is spin or not, the 
consequences strike me as being much more significance, 
obviously, to the decision to tell people it was based--we were 
going to invade Iraq not because we didn't like Saddam Hussein, 
although that was the case as well, but that there were 
biological weapons and weapons of mass destruction versus what 
we see with the Iran nuclear deal.
    Now, you can assume as experts that this is not going to 
turn out well, but to this point they are not equal in terms of 
the negative consequences to this country and the stability of 
that peace in the Middle East. Would you say? I mean, how could 
you possibly say at this point?
    Mr. Hannah. Listen, I would say that the--that you're 
right, that war and the death of the--and injury of American 
soldiers is a terrible, terrible price to pay. We haven't seen 
a lot of Americans dying, but just take a look at the Middle 
East right now after 8 years of this administration. It's hard 
to say it's better because Americans aren't dying but half-a-
million Syrians have died, chemical weapons are being used, 
Russian and Iranian influence ----
    Mr. DeSaulnier. But that all was because of a decision that 
you were very much a part of to get the country to go to war in 
Iraq.
    Mr. Hannah. Well, you know it's much more complicated than 
that because it ----
    Mr. DeSaulnier. No, it isn't.
    Mr. Hannah. It is, Congressman ----
    Mr. DeSaulnier. Not from my perspective. I am not an expert 
----
    Mr. Hannah. Okay.
    Mr. DeSaulnier.--but I have gone to funerals of 
constituents who are dead in their 20s and their teens because 
you and Vice President Cheney encouraged the invasion of Iraq.
    Mr. Hannah. It was because Iranian IEDs, Iranian EFPs that 
killed Americans, not a narrative, and that is why it's ----
    Mr. DeSaulnier. How did that action stop ----
    Mr. Hannah.--so not understandable that we're letting Iraq 
off the hook.
    Mr. DeSaulnier. How did our invading Iraq stop those other 
actions? You have sat here and testified they continue to 
support terrorists in the region.
    Mr. Hannah. We didn't invade the Gaza Strip, we didn't 
invade Yemen, we didn't invade Syria, and yet we see Iran on 
the warpath all over. And what this agreement did was take the 
budget of the Islamic Revolutionary Guard Corps, the hard 
currency available to it, and increase it by an order of 
magnitude.
    Mr. DeSaulnier. They were doing that before. That is why we 
went into Iraq is what you are saying. Yes, no?
    Mr. Hannah. No, I'm saying you are trying to ----
    Mr. DeSaulnier. You said ----
    Mr. Hannah.--blame a narrative on the fact that Iran has 
been the leading state sponsor of terrorism according to the 
U.S. Department of State since 1984, and to try to somehow 
distract from that and distract from a false--a narrative of 
false moderation is counterproductive, I would argue.
    Mr. DeSaulnier. I just have to tell you in all honesty I 
feel like I am in a replay of a sequel of Dr. Strangelove here, 
and it would be nice to have a balanced discussion about this. 
Thank you, Mr. Chairman.
    Chairman Chaffetz. I would agree with the gentleman. It 
would be nice to have a balanced discussion. That is why we 
invited Mr. Rhodes and we invited the participation of Senator 
Cotton, who is on the other end of the spectrum. But when the 
White House refuses to make them available and Democrats call 
no witnesses, we can't have that discussion. That is what a 
shame about today's hearing.
    I now recognize the gentleman from Oklahoma, Mr. Russell, 
for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman.
    In dealing with the Iran nuclear issue, I am saddened that 
rather than look forward to how best secure the United States 
from a real nuclear threat, we see a progressive attack on our 
entry into Iraq to cloud the issue. It is almost like the 
classic page from the Communist playbook that advises ``admit 
nothing, deny everything, and make counteraccusation.''
    I take exception to the twisted narrative that our entry 
into Iraq was based upon bad faith and false pretense. If an 
abusive neighbor attacks everyone in his neighborhood and then 
threatens them with total destruction, are we to believe, as 
progressives seem too, that we should sit idly by and not take 
action to secure ourselves from such threat?
    The truth of the matter is that Saddam had technical 
capacity to develop a bomb. In the summer of 2003 I have 
firsthand knowledge that the 1st Battalion, 36th Infantry, 
along with special operations forces, they secured a Zippe 
centrifuge, which is of the highest order for refinement of 
nuclear material, and it was smuggled out of Europe. They 
obtained technical drawings and hardware from the garden of 
Saddam's nuclear physicist Dr. Mahdi Obeidi. Dr. Obeidi's 
account of Saddam's threat is well-documented in his book The 
Bomb in My Garden, an account the CIA describes as largely 
accurate and balanced.
    I remember as I served in Iraq during that time as we were 
hunting for Saddam that this would be major news as the Zippe 
centrifuge and technical drawings would come to light. Instead, 
it is largely hidden to this day.
    It is also interesting to note that senior leaders and one 
in particular who relayed to me that during a major Syrian 
flood he was directed by Saddam to move material to an eastern 
Syrian site. This was material of both a nuclear and a chemical 
nature. It is interesting that that very site was attacked 
during Operation Orchard by the Israeli Air Force, and that 
site was completely destroyed because they were making a 
nuclear reactor. Again, the silence on these issues is 
deafening.
    As one of the commanders that helped track down and capture 
Saddam Hussein, it is very emotional for me to hear Members of 
this Congress condemn our efforts, but it is not surprising. 
From day one, as we sacrificed in the field, progressives in 
this Congress condemned our efforts with progressive leaders 
even going so far as to declare that the war was lost while we 
buried our friends in the field. That steady drumbeat forced us 
to bury friends not only there but ship come home and put them 
in Section 60 of Arlington, and then we come home to watch 
politicians, many still in office, destroy what we fought for. 
They persist even today, Mr. Chairman.
    I will never regret bringing a dictator to justice, and I 
am proud to have played a part in it. History, should we even 
allow it, will judge us and our efforts in Iraq kindly. I am 
not sure the same can be said of Congress.
    Now, we turn to yet another nuclear threat with Iran. Dr. 
Obeidi, in reflecting on our security, stated that to succeed 
``illicit nuclear programs share a common weak spot. They need 
international complicity.'' In Mr. Rhodes and this 
administration, it appears he provided and they provided all of 
it to Iran.
    Mr. Rubin, how and how early did the administration start 
talking about minimizing congressional oversight of the Iran 
deal?
    Mr. Rubin. I am not privy to the internal discussions 
within the administration, but it appears from secondhand 
sources almost from the beginning.
    Mr. Russell. I have passed the Iran Terror Financier Act, 
the only real effort to oppose the nuclear deal, which now sits 
in the Senate. And with Mr. Rhodes' exposure, the need for 
congressional oversight, there are key provisions in my measure 
and it sits in the Senate. That language even today could be 
acted upon by the Senate that would provide us key oversight on 
any decisions.
    The President acted unconstitutionally. While he is free to 
make agreements and have negotiation, he is not free to bind us 
with treaty-like obligation. Do you think that if we pass the 
key provisions out of the measure that currently sits in the 
Senate that would increase that oversight? As was noted last 
week by Politico, do you think that it would be helpful in 
deterring and at least making what we do have better?
    Mr. Rubin. Yes. And very briefly, the strongest, most 
effective actions that have been taken by Iran both under the 
Clinton administration with executive orders and under the Bush 
and Obama administrations have been the unilateral American 
sanctions rather than the watered down United Nations Security 
Council resolutions, even though the Bush administration 
achieved a number of those as well.
    Mr. Russell. Thank you, sir, and thank you, gentlemen, for 
your service and thank you for being here today.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. Mr. Russell, we thank you for your 
service and your sacrifice and your time serving this country, 
and we are better for it. Thank you.
    I now recognize the gentlewoman from New Mexico, Ms. Lujan 
Grisham, for 5 minutes.
    Ms. Lujan Grisham. Thank you, Mr. Chairman.
    And thanks for the opportunity to talk about what I think 
is really important in this agreement and issue, which is 
making sure that we are holding Iran accountable, that we are 
clear about what those accountability issues and measures are, 
and not just how that is being communicated but how that is 
being verified.
    And my only disappointment in the hearing today, Mr. 
Chairman, is that we are having conversations about what-ifs 
but we are not talking to the folks--with no disrespect to the 
panel members--about really who is enforcing, who is 
accountable, and certainly for my constituents and the number 
of individuals that I spoke to with expertise in this area 
either as concerned citizens or organizations and the 
administration and people outside of the administration, that 
is my core focus.
    And in fact, as part of the hearing of this nature, I was 
more concerned and more--I would like information about the 
reductions in the uranium stockpile, the status of the 
centrifuges in Iran, the monitoring and detection measures that 
the U.S. has, and then our allies have also been doing. Does 
anyone on the panel have any specific authority or expertise on 
any of those issues because you are directly involved in that 
accountability?
    Mr. Rubin. Are we serving a government right now or am I in 
IAEA? The answer to that is no. However, we have dedicated 
years to the study of these issues and so could give 
suggestions if you would like.
    Ms. Lujan Grisham. Well, and I appreciate that. For 
example, I have spent 30 years in the health care industry, and 
I have a variety, I think, of very credible opinions, but at 
the end of the day I am not your physician so I can't talk to 
you about your specific health. And what I really think is 
important with, again, no disrespect, gentlemen--and one of the 
things that I appreciate about this hearing is that we tackle 
tough subjects. I expect that in this committee. I expect that 
of the chairman, particularly in this issue, keeping America 
safe, being clear that we will make sure that everyone is 
accountable, that we are clear about what the risks are, I 
think that those are all incredibly valuable things for us to 
be paying attention to.
    And I can tell you that my constituents back home, in 
addition to the country, expect that from me. But to know 
exactly where we are more than opining based on--again, no 
disrespect to your credentials, far better than mine on these 
specific issues directly--but again, I think, Mr. Chairman, we 
ought to be talking to the individuals who are absolutely 
responsible for assuring, verifying these issues so that we 
know exactly what we are dealing with because they are actually 
doing it.
    What can we be doing better to make sure that we are 
getting that information and that our accountability 
enforcement efforts are what they ought to be and that we have 
a way bipartisan to weigh in to reshape them productively if 
need be? Anyone?
    Mr. Doran. I totally agree with you. I agree with 
everything you have said, and I think that I would like to have 
a discussion with those people. But the administration has 
worked to obfuscate this entire--the agreement and all the 
processes around it. And I think that's one of my main messages 
here is not that I'm the expert on centrifuges or that I'm the 
expert on sanctions and so on. It's that those of us who would 
like to understand what is happening are not being given the 
information we need. We can't have an open and honest debate 
about this because we really don't have the key facts. And I 
think if you read my prepared statement, you'll see that I've 
made, I think, a pretty cogent argument to that fact.
    Ms. Lujan Grisham. Anyone else?
    Mr. Rubin. Well, what I would say is when surgery goes 
awry, oftentimes the doctors will conduct an after-action study 
about what went wrong. Likewise in the private sector, 
businessmen will practice negotiations and look at what they 
might have done better. In the U.S. military, sergeants, 
majors, and chiefs will berate soldiers from making mistakes 
not for a political ax to grind but to make them better 
soldiers and sailors.
    What the State Department has not done in the last 60 years 
is conduct an after-action report about high-profile diplomacy. 
This goes across administrations. So, yes, we can say that this 
is what the IAEA needs to be looking for, that they need not 
only to be looking at declared nuclear facilities but also 
undeclared nuclear facilities, that there has to be independent 
testing of Iran--of work being conducted on Iranian nuclear 
military sites and that there has to be extraterritoriality in 
the inspection in case Iran takes some of its lab work to North 
Korea.
    Those are all specific things which could be done, but we 
have to go broader and look at why diplomacy hasn't worked. 
Let's have the State Department be introspective. If they're 
not going to do the due diligence, the Congress should.
    Ms. Lujan Grisham. And I appreciate those points, and my 
time is up, but in response, again, without having that 
expertise in this hearing, we don't have a debate based on 
facts. And I might disagree with you about our efforts in what 
I am going to call complex and high-level diplomacy and maybe 
on some points I am not, but without having those individuals 
before this committee, we are ill-equipped to do that.
    Mr. Chairman, I yield back.
    Chairman Chaffetz. I concur with the gentlewoman. That is 
why it is so frustrating when Mr. Rhodes, who is at the center 
of this, was, as of Monday, going to appear and then suddenly 
executive privilege is claimed and they decide not to have him. 
So you are right. The Congress is kept in the dark because the 
administration won't share the information with us.
    Ms. Lujan Grisham. And, Mr. Chairman, with--and the 
chairman is very patient with me and this is not a place to 
debate that, and I appreciate the chairman more than he knows, 
and I mean that earnestly, but again, I am not sure that Mr. 
Rhodes is the right person. But we do. We need to continue to 
have an effort to get facts so that we are not speculating 
about where we are in enforcing this agreement. And that is all 
of our responsibility.
    So thank you, Mr. Chairman, for again giving me maybe the 
last word, and thank you for being patient with me today, sir.
    Chairman Chaffetz. Thank you. I thank the gentlewoman.
    I now recognize the gentleman from Wisconsin, Mr. Grothman, 
for 5 minutes. Microphone, please. Microphone.
    Mr. Grothman. Could we have slide 3?
    [Slide.]
    Mr. Grothman. Okay. I better read it over here. The easiest 
way for--okay. This is a quote from a New York Times article. 
``The easiest way for the White House to shape the news, he 
explained, is from the briefing podiums, each of which has its 
own dedicated press corps. 'But then there are sort of these 
force multipliers,' he said, adding that 'We have our 
compadres. I will reach out to a couple of people and, you 
know, I wouldn't want to name them. I will say, hey, look, some 
people are spinning this narrative that this is a sign of 
American weakness.'"
    Well, since he won't name them, Mr. Doran, do you want to 
take a shot at who was he speaking of when they talk about the 
administration's compadres in the press who helped them spin 
the White House narrative and who in the press do you think he 
is kind of referring to there?
    Mr. Doran. I wouldn't want to speculate on individuals. I 
would just note that in general the major newspapers and the 
major networks have supported the line coming out of the White 
House. And one of the things that Mr. Rhodes drew our attention 
to and I think it's important to focus on is the blurring--as a 
result of the fact that newspapers and networks are reporting 
foreign news from Washington, we have this blurring now of 
opinion and news so that the line that Mr. Rhodes is putting 
out find its way into news articles and that it also finds its 
way into opinion columns at the same time, which then they had 
a kind of mutually reinforcing effect.
    But we also find at the same time that only about 13 
percent of Americans actually believe what they're hearing 
anymore, and I think we can draw our own conclusions about 
that.
    Mr. Grothman. Well, having been here for 14 months, I don't 
believe anything I read in the paper around here, but the major 
papers, do you believe like the New York Times, the Washington 
Post, would you consider those major papers you are talking 
about?
    Mr. Doran. Yes, you can see like--I'll give an example. You 
know, recently, the Saudis put to death this cleric Nimr al-
Nimr, a Shiite. The line that you got universally in the 
newspapers, in the news articles, and in the opinion pieces and 
then on the networks was that there's a huge Saudi sectarian 
escalation which is destroying relations with Iran. All the 
things that Iran is doing around the region, flexing of its 
muscles like Dr. Rubin described, we're not hearing about. And 
I believe that that was news reported out of the White House.
    I'll just say one more thing about this, too. Because of 
the rise of the internet, we have all these nontraditional news 
sources now that people go to, and it puts enormous pressure on 
the serious reporters that are out there. I mean, I'm thinking 
of people like David Sanger and Michael Gordon of the New York 
Times. These are very serious reporters, right? But they know--
and if they don't know it and if they're not thinking about it 
directly in their own minds, their editors know that if they 
don't--that if they take a line that is hostile to what the 
White House is saying, the White House can go to Vox or to 
BuzzFeed or somewhere else and give the story.
    So even reporters that I think we would all agree are 
extremely serious reporters are under pressure, I think, not to 
report a story that's going to harm their access to the White 
House.
    Mr. Grothman. Okay. And just so we understand, we mentioned 
the New York Times and Washington Post by name, but because 
they feed the Associated Press, just because I don't get the 
New York Times and Washington Post doesn't mean that that is 
not the article that I am getting, say, in almost any other 
major newspaper around the country, correct?
    Mr. Doran. Yes, it replicates itself immediately.
    Mr. Grothman. Okay. Now, when he talks about his compadres, 
do you have any opinion if he is talking about anybody in the 
think tank or policy world?
    Mr. Doran. Well, the two that were mentioned in the article 
were the Ploughshares Fund and NIAC, but it is not hard--you 
know, if you followed would happen on Twitter when this article 
came out, the friends of the White House and the friends of the 
echo chamber, you could identify the echo chamber by seeing how 
they pounced immediately on the article, picked out one or two 
little facts that they could criticize, and built a whole, I 
think, specious argument that the author had a political agenda 
in this. And then that narrative then was spun out of social 
media and into the mainstream media.
    Mr. Rubin. If I may say very quickly, sir, I don't know 
David Samuels, the author of the article, but to criticize him 
for not being supportive of the Iran deal illustrates the 
problem of an echo chamber because journalists saying that only 
sympathetic journalists that can cover the administration, that 
itself is a sign of a much greater problem. Huge problem.
    Mr. Grothman. Can I play video here or are we done with our 
time?
    Chairman Chaffetz. Let me go to Mr. Palmer ----
    Mr. Grothman. Okay. I want to come back. Yes.
    Chairman Chaffetz.--and then if you want to come back, we 
will come back.
    Now, we are going to recognize the gentleman from Alabama, 
Mr. Palmer.
    Mr. Palmer. Thank you, Mr. Chairman. I think we have about 
worn this out. We have covered everything from Iran to the fact 
that I think Mr. Meadows establish very clearly that we were 
lied to by this administration, perhaps even with contempt.
    But I want to go to something else that I think is really 
at the core of what we ought to be talking about, and that is a 
key promise from the administration is that the Iran nuclear 
deal would provide the public and lawmakers with assurance that 
Iran was meeting its obligation, and Iran's ability to engage 
in proliferation would the substantially mitigated.
    I mean, we can go back to the Rhodes statement that it 
would be the strongest inspection regime that any country faces 
in the world. We could go to what the State Department posted 
on the Web site, that the International Atomic Energy Agency 
would have regular access to all of Iran's nuclear facilities, 
that they would be providing the IAEA with much greater access, 
that it would require--that they be granted access to 
investigate suspicious sites or allegations of covert 
enrichment. But that is not what has actually happened.
    I want to share with you that after the deal was 
implemented, the International Atomic Energy Agency published 
its regular report on Iran. I think it came out in February. 
And the report contained less information than the IAEA had 
regularly provided about Iran before the deal was in place. In 
fact, when asked about these gaps, IAEA Director General Amano 
said that, in fact, the deal restricted the IAEA's ability to 
report publicly about Iran's nuclear program.
    Mr. Rubin, given that, how much confidence do you have in 
this deal?
    Mr. Rubin. I have very little confidence in this deal for 
reasons that I've outlined in my written testimony. It falls 
far short of the most rigorous inspection regime ever, and the 
danger isn't just in Iran, very briefly. The danger is that it 
permanently dilutes the standard by which other potential 
proliferators are held.
    Mr. Palmer. But would you agree that General Amano's 
statement validates the concerns that you expressed about the 
deal from the very beginning?
    Mr. Rubin. Yes, I would.
    Mr. Palmer. Would you also say that, given this statement 
from the General Amano, that the exaggerated concessions that 
this administration claims that they obtained might be called 
into question as well?
    Mr. Rubin. Yes, I would.
    Mr. Palmer. You know, we have been talking about echo 
chambers, we talked about misrepresentations. I go back to the 
statement that Secretary of State Kerry made that he was the 
chief negotiator. We know that the framework of the deal was 
already in place before he really got involved, these 
statements that have been brought out in the New York Times 
Magazine article, but what we really haven't talked about is 
the fact that the deal is a fraud, and Iran could be on a path 
to a nuclear weapon.
    And here is something else that we haven't really discussed 
that I think we need to be talking about, too, is that 
according to Ben Rhodes that this deal also is part of a plan 
to abandon our friends and allies in the Middle East. Does that 
give you some concern, Mr. Rubin?
    Mr. Rubin. Yes, it does.
    Mr. Palmer. How about you, Mr. Doran?
    Mr. Doran. Absolutely.
    Mr. Palmer. How about you, Mr. Hannah?
    Mr. Hannah. Yes, very much so.
    Mr. Palmer. Do you believe that the Obama administration 
withheld information from Congress about the deal 
intentionally?
    Mr. Rubin. Yes, I do.
    Mr. Palmer. Do you believe that was in violation of the 
Corker-Cardin agreement, the law that he signed into law 
himself?
    Mr. Rubin. It absolutely was, and on top of which the 
Corker-Cardin amendment was written in such a way to prevent 
this from happening. And unfortunately, the administration 
simply broke the law.
    Mr. Palmer. I couldn't agree more. Peter Roskam, the 
gentleman from Illinois, introduced a House resolution and 
argued that very point. The House passed that resolution that 
this deal was illegal from the get-go because the Corker-Cardin 
law required that all information be provided to Congress, 
including the side agreements, and it clearly wasn't.
    I think there is one issue, really one question that we 
need to ask, and I will ask each one of you to answer this. Do 
you believe this deal has actually assured Iran a path to 
developing a nuclear weapon?
    Mr. Rubin. Yes. At the very least it leaves Iran with an 
industrial-scale nuclear program upon the expiration of the 
controls, and the administration went into this knowing that 
the Iranian regime was not moderate.
    Mr. Palmer. Mr. Doran?
    Mr. Doran. I agree with all that.
    Mr. Palmer. Mr. Hannah?
    Mr. Hannah. Yes, I agree with Michael's conclusion.
    Mr. Palmer. Mr. Chairman, I am not sure it is the 
jurisdiction of this committee to look into the ramifications 
of that possibility, but I do think that is essentially what we 
should have been talking about this entire time. And the fact 
that this administration misled Congress is one issue that I 
think we need to pursue, but I think at some point Congress 
needs to look at what our positions ought to be going forward 
in regard to Iran.
    I yield back.
    Chairman Chaffetz. I totally agree with the gentleman and 
appreciate his perspective. And he is right. That is the 
ultimate fear that we have is that Iran, not a friend of the 
United States, not a friendly partner within the world 
community, that they are even more so on a pathway to develop a 
nuclear weapon, and that is what is scary.
    We will go one more time to Mr. Grothman of Wisconsin.
    Mr. Grothman. Sure. And we will go one more time to Ben 
Rhodes--I mean, not to Ben Rhodes, to Michael Doran.
    Ben Rhodes commented on the White House's desire to avoid 
scrutiny. And I would like to look at video clip D and ask you 
a question about it.
    [Video shown.]
    Mr. Grothman. Okay. How do you feel the process 
circumvented the transparency with Congress?
    Mr. Doran. They structured the deal so that they could take 
it to the Security Council and effectively move out on it 
before Congress ever really got to look at it.
    And there's a second dimension to what we just heard that's 
disturbing. That was Ben Rhodes talking to a group of 
progressive activists and telling them what was coming down the 
line and giving them the talking points about how to support 
it. I mean, that--what you just heard was Ben Rhodes talking to 
the foot soldiers that are going to create--that are--in his 
echo chamber.
    Mr. Grothman. Tell us again what those foot soldiers are.
    Mr. Doran. I'm sorry?
    Mr. Grothman. Tell us again what you describe those foot 
soldiers ----
    Mr. Doran. Oh, those--in this case these are progressive--
this is progressive groups. I don't know the exact--what we're 
talking--they regularly briefed dozens of progressive groups. 
I'm not talking about pseudo-experts on nuclear proliferation 
and things that that. I'm talking about just grassroots 
progressive organizations to get--to help them carry the water 
politically.
    But it's one of these blurring of the lines between rules 
that I don't think we saw in previous administrations where you 
have somebody who's in charge of communications but yet sitting 
at the table with the Secretary of Defense and sometimes 
telling the Secretary of Defense that he's wrong and then going 
out and talking to domestic political groups and telling them 
how to go militate in favor of the foreign policy of the 
administration.
    Mr. Grothman. Okay. Thank you.
    Chairman Chaffetz. I thank the gentleman. I thank you all 
for your attendance here, your participation, your expertise in 
illuminating what is a very disturbing situation.
    The committee stands adjourned.
    [Whereupon, at 12:46 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
